<html>
<title> - FIVE YEARS LATER: LESSONS LEARNED, PROGRESS MADE, AND WORK REMAINING FROM HURRICANE KATRINA</title>
<body><pre>[Senate Hearing 111-1007]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1007
 
                   FIVE YEARS LATER: LESSONS LEARNED,
        PROGRESS MADE, AND WORK REMAINING FROM HURRICANE KATRINA

=======================================================================

                                HEARING

                               before the

                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                     FIELD HEARING IN CHALMETTE, LA

                               __________

                            AUGUST 26, 2010

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
63-829                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afc8dfc0efccdadcdbc7cac3df81ccc0c281">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
             Joyce Ward Publications Clerk and GPO Detailee


                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                 MARY L. LANDRIEU, Louisiana, Chairman
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois           SCOTT P. BROWN, Massachusetts
                      Ben Billings, Staff Director
                  Andy Olson, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Landrieu.............................................     9
Prepared statements:
    Senator Landrieu.............................................    49

                               WITNESSES

                       Thursday, August 26, 2010

Gregory C. Rigamer, Chief Executive Officer, GCR and Associates, 
  Inc., New Orleans, LA..........................................     3
Amy Liu, Deputy Director and Senior Fellow, Metropolitan Policy 
  Program, The Brookings Institution, Washington, DC.............     5
Hon. Charlie Melancon, a Representative in Congress from the 
  State of Louisiana.............................................    11
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana...................................................    13
Hon. Joseph Cao, a Represenative in Congress from the State of 
  Louisiana......................................................    15
Hon. Shaun Donovan, Secretary, U.S. Department of Housing and 
  Urban Development..............................................    17
Paul Rainwater, Commissioner of Administration, State of 
  Louisiana; and Former Executive Director, Louisiana Recovery 
  Authority......................................................    21
Doris Voitier, Superintendent, St. Bernard Parish Schools........    24
Mark Schexnayder, Agent, Louisiana State University Agriculture 
  Center.........................................................    27
Lauren Anderson, Chief Executive Officer, Neighborhood Housing 
  Services of New Orleans........................................    28
Hon. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security...................    33
Lieutenant General Robert Van Antwerp, Jr., Chief of Engineers, 
  U.S. Army Corps of Engineers...................................    35
Mitchell J. Landrieu, Mayor City of New Orleans..................    37
Kevin Davis, President, St. Tammany Parish.......................    39
Jiff Hingle, Sheriff, Plaquemines Parish.........................    40

                     Alphabetical List of Witnesses

Anderson, Lauren:
    Testimony....................................................    28
    Prepared statement with attachment...........................    95
Cao, Hon. Joseph:
    Testimony....................................................    15
Davis, Kevin:
    Testimony....................................................    39
    Prepared statement...........................................   127
Donovan, Hon. Shaun:
    Testimony....................................................    17
    Prepared statement...........................................    53
Fugate, Hon. W. Craig:
    Testimony....................................................    33
    Prepared statement...........................................   106
Hingle, Jiff:
    Testimony....................................................    40
    Prepared statement...........................................   131
Landreiu, Mitchell J.:
    Testimony....................................................    37
    Prepared statement...........................................   125
Liu, Amy:
    Testimony....................................................     5
Melancon, Hon. Charlie:
    Testimony....................................................    11
Rainwater, Paul:
    Testimony....................................................    21
    Prepared statement...........................................    75
Rigamer, Gregory C.:
    Testimony....................................................     3
Scalise, Hon. Steve:
    Testimony....................................................    13
Schexnayder, Mark:
    Testimony....................................................    27
    Prepared statement...........................................    92
Van Antwerp, Lt. Gen. Robert Jr.,
    Testimony....................................................    35
    Prepared statement...........................................   116
Voitier, Doris:
    Testimony....................................................    24
    Prepared statement...........................................    82

                                APPENDIX

Statement submitted by Sam Riley Medlock, J.D., CFM, Association 
  of State Floodplain Managers                                      136
Questions and responses submitted for the record from:
    Mr. Donovan..................................................   145
    Ms. Voitier..................................................   148
    Ms. Anderson.................................................   150
    Mr. Fugate...................................................   151
    Mr. Van Antwerp..............................................   155
    Mr. Hingle...................................................   158


 FIVE YEARS LATER: LESSONS LEARNED, PROGRESS MADE, AND WORK REMAINING 
                         FROM HURRICANE KATRINA

                              ----------                              


                       THURSDAY, AUGUST 26, 2010

                                   U.S. Senate,    
              Ad Hoc Subcommittee on Disaster Recovery,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                     Chalmette, LA.
    The Subcommittee met, pursuant to notice, at 10:00 a.m., at 
Chalmette Elementary School, 75 East Chalmette Circle, 
Chalmette, Louisiana, Hon. Mary L. Landrieu, Chairman of the 
Subcommittee, presiding.
    Present: Senator Landrieu.
    Senator Landrieu. Good morning. If everyone would have 
their seats, I am Senator Mary Landrieu and welcome to our 
presentation and official Congressional hearing that will start 
in just a moment.
    But I would like to turn the microphone over to the 
Superintendent of St. Bernard Schools, Doris Voitier, who will 
welcome you officially, and I think her students have a welcome 
presentation.
    Ms. Voitier. Well, good morning and welcome to Chalmette 
Elementary School. During the storm, this facility was under 
between 8 to 10 feet of water and it was a middle school, 
Chalmette Middle School. We had to demolish the school and we 
have built this beautiful structure for our elementary school 
students, pre-K through five. We have 820 children on this 
facility, and it is state of the art.
    What you are sitting in right now is our Teacher Training 
Center. So adjacent to this property prior to the storm, we had 
a Teacher Training Center. So when we rebuilt, we decided to 
incorporate it into the school itself, and I think that it is--
as you can see, it is a beautiful facility, the main meeting 
room, we have a training lab and some secondary meeting rooms, 
as we do in-service training for our teachers and our staff, as 
well as allow the students to use it during the day and 
community at other times.
    So as we rebuild the community, it is truly a partnership 
with the school system and parish government, all of our 
community partners as well as our Federal partners. So we thank 
the Federal Emergency Management Agency (FEMA), we thank 
members of our Congressional delegation. The Senator has just 
been phenomenal in fighting that cause for us and we applaud 
her tremendously for her efforts. [Applause.]
    If it were not for Senator Landrieu, much of this would not 
have happened. She has just been a tigress in getting that 
legislation passed for us. And our Representative, Congressman 
Melancon, has also been phenomenal. I mean, he was here on day 
one, has done so much to help this community with much of the 
restart legislation. [Applause.]
    So we thank him, and we welcome our neighboring 
Congressman, Congressman Scalise, as well.
    So without further adieu, we would ask that you please 
stand, because our children from--Victoria and Cory--are going 
to lead us in the Pledge with some of their classmates behind 
them.
    [The Pledge of Allegiance was recited.]
    Thank you. That was wonderful.
    Senator Landrieu. Beautiful. Thank you, children. 
[Applause.]
    Thank you, and welcome, Congressman Cao. Please have a seat 
up here.
    Winston Churchill once said, if you are going through hell, 
keep going. [Laughter.]
    Five years ago, in the aftermath of Hurricane Katrina and 
the Federal levee failures that followed, that is precisely 
what millions of Louisianans and residents of the Gulf Coast 
decided to do.
    I am very honored, actually, to be joined today by leading 
citizens of St. Bernard Parish, leaders from around the 
Southeast region of our State, and the heads of three Federal 
agencies that have had the responsibility to invest over $40 
billion into the recovery efforts underway that you are seeing 
this morning and will hear about in just a few minutes. We have 
with us the Secretary of Housing and Urban Development (HUD), 
Shaun Donovan, Administrator Fugate of Federal Emergency 
Management Agency, and General Robert Van Antwerp from the 
Corps of Engineers.
    The last 5 years have revealed remarkable strength and 
resiliency among the people of the Gulf Coast, particularly 
here in Louisiana. Our faith in government at every level and 
in elected leadership and in ourselves has been tested along 
the way, but we continue to adapt, to persevere, to fight for 
the recovery and renewal of a great American city and region 
that is uniquely positioned. Our cultural heritage, our rich 
history, our strong sense of community are unmatched in the 
United States.
    Hurricanes Katrina and Rita and the resulting levee 
failures claimed the lives of 1,577 Louisianans, displaced 
800,000 residents from their homes, forced 220,000 workers out 
of a job. The floodwaters, storm surge, and winds shuttered 875 
schools, destroyed 215,000 homes, 18,700 businesses, and 217 
square miles of coastal wetlands was lost. To put that coastal 
wetlands figure clearly in mind, it would be like losing the 
entire cities of Shreveport, Lake Charles, Monroe, and Natchez.
    We will always be grateful to our first responders who 
saved so many lives, our firemen, our police officers, the 
Coast Guard, the National Guard, the Cajun armada of ordinary 
citizens and individuals who traversed the floodwaters in 
skiffs and airboats to ferry distressed citizens to safety. We 
are grateful to the hundreds of thousands of volunteers who 
have provided relief to help build our communities and we are 
thankful to the American people for their generosity, their 
prayers, and their investment in this region's recovery, 
represented by over $60 billion in Federal aid for rebuilding.
    As we approach the 5-year anniversary of the worst natural 
and manmade disaster in American history, we are compelled to 
pause and consider the road we have traveled, the condition we 
find ourselves in today, and a pathway forward. That is the 
purpose of today's hearing, to take stock of the lessons that 
we have learned, maintain our momentum, and to make Louisiana 
safer, stronger, and more prosperous than ever before. And, I 
might add, in doing so, to share the lessons we have learned 
with other communities around the United States and world. 
Haiti comes to mind. Pakistan comes to mind. So when people 
around the world are suffering, they might look to what has 
happened here in South Louisiana to make changes for 
themselves.
    We will begin with two brief but very informal 
presentations on the status of recovery before proceeding with 
our formal hearing, which will help frame the discussion to 
gain a perspective on what we are going to hear at the formal 
hearing.
    Our first presenter is Greg Rigamer from GCR and 
Associates. He will discuss population and recovery. Mr. 
Rigamer is an acknowledged expert in urban planning and 
management and CEO of GCR and Associates.
    We will then turn to Amy Liu from the Brookings Institute 
Metropolitan Policy Program for an overview of the recent 
report released in conjunction with the Greater New Orleans 
Community Data Center. Ms. Liu is a Senior Fellow and Deputy 
Director with the Brookings Metropolitan Policy Program. We are 
grateful for what the Brookings Institute has done from the 
beginning to help us keep track, actually, of what the 
situation was and how we were progressing or not.
    I would like to again thank everyone in the audience for 
being here today. We will start with our presentations now and 
then the members of the Congressional delegation and I will sit 
at the panel and begin the more formal part of our hearing, and 
I will turn this over to you, Mr. Rigamer. Thank you.

 TESTIMONY OF GREGORY C. RIGAMER, CHIEF EXECUTIVE OFFICER, GCR 
          AND ASSOCIATES, INC., NEW ORLEANS, LOUISIANA

    Mr. Rigamer. Thank you, Senator Landrieu. As we cue up the 
presentation, I appreciate being invited to participate and 
feel honored and privileged to be here.
    As Senator Landrieu pointed out, obviously, we need not 
tell anyone here the colossal impact of Hurricane Katrina, but 
it was a devastating storm by all measures--lives lost, homes 
lost, assets lost. When you think of a complete cessation of 
governmental and business activities within a community, it is 
phenomenal to think that 5 years later, we are sitting here 
today in one of the hardest-hit areas and having such a meeting 
to discuss the challenges and also the accomplishments that we 
have made.
    Today, 91 percent of the pre-K population in the New 
Orleans region is here. We have about 84 percent of the jobs 
and we have about 86 percent of the commercial businesses that 
were established pre-storm back today. So there has been over 
$10 billion invested in housing in the immediate impact area, 
and most--I shouldn't say most importantly, but we have the 
benefit of $15 billion of hurricane protection for the 
community that will serve to protect us from future events.
    Also, real similar with 2010, following the anniversary of 
significant change in many aspects of the political landscape 
within the community, we win the Super Bowl. It is a real 
statement about that we are back.
    Senator Landrieu. And we can take credit for that.
    Mr. Rigamer. Absolutely. Well, I think, clearly, you were a 
motivating factor in this. People wanted to prove that we could 
do this.
    All that said and done, we do have major challenges. We 
have lost 93,000 jobs in the region since June 30, 2005. These 
figures are from June 30, 2010. Our rents are high. And we have 
about 57,500 units that we can identify that are out of service 
today that are directly related to the impact of Hurricane 
Katrina. Currently, we have building but diminished public 
services and we have yet to see significant provident 
investment within our community.
    When we look at the impact area, the five parishes, 
Jefferson, Orleans, Plaquemines, St. Bernard, St. Tammany, and 
the metropolitan area, while the metropolitan area is 91 
percent back, St. Bernard is about 63 percent back and the City 
of New Orleans is about 80 percent back. Now, when you look at 
the extent of the flooding that we experienced, it is 
absolutely phenomenal that we are at this level today. We zoom 
in a little bit closer and look at the St. Bernard and Orleans 
Parish areas and we can see that the depth of flood was 
absolutely significant.
    One of the things that is very interesting is to look at 
the sequence of recovery of our communities. We monitor 
information at the address level aggregated to a block and then 
compare it to 2005. So in 2005, the community was fully 
occupied and everything was up. By January 2006, everything in 
red is a neighborhood or a block that is less than 20 percent 
back, zero to 20 percent back. For the most part, what you see 
in red was zero. But within 6 months, by July, we see signs of 
recovery, green being fully back and the shades between red and 
green coming up. January 2007, July 2007, January 2008, July 
2008, January 2009, July, January 2010, and where we are today.
    So when we look at this phenomenal change from where we 
were in January 2006 to where we are today, throughout St. 
Bernard and Orleans Parish, it is very impressive. So 5 years 
after Hurricane Katrina, though, we have 57,500 units that we 
can put our finger on that are not in service today that were 
in service in July 2005.
    So what does that look like? That is what Orleans Parish 
looks like. Every red dot on there is a parcel that was in 
service in July 2005 and not today. This is what St. Bernard 
looks like. I apologize, the images aren't quite as crisp on 
this. But every red dot that you see on there is a home or a 
business that was occupied in 2005, not today. So when we look 
at this, it is absolutely significant.
    Now, how do we address this? Obviously, investment is part 
of it, but we need jobs. It is not just the short-term money to 
fix the issue, it is the money to sustain the community. Jobs 
is the key. We have lost nearly 94,000 jobs in the metropolitan 
area since Hurricane Katrina, and if we have any expectation of 
absorbing these properties that are out of service, it is going 
to be through economic growth.
    Today, our rents are very high. In the New Orleans area, 
the fair market rent for a two-bedroom unit is now higher than 
comparable cities like Houston and Atlanta. It peaked in 2009, 
but still in 2010 we are higher than any of our other major 
metropolitan areas.
    When we look at the affordability index, how easy is it for 
somebody to live in New Orleans, what is the percent of rent 
that someone would expect to pay of their income, and the 
greater New Orleans area is here at the bottom and we are over 
25--we are between 25 and 30 percent of our income. And these 
figures are from HUD. We are more expensive, a more expensive 
place to live, than places like Miami. This is a real problem 
for our community.
    But on the good side, there is significant money being 
invested that will result in major new jobs for this area. The 
LSU-VA Hospital project, Federal City, the Bio Innovation 
Center, the Port of New Orleans expansion, the growing film 
industry, and the New Orleans Cancer Research Center will all 
provide the type of jobs that we need to attract people to our 
community. If we attract people, we can redevelop our 
neighborhoods and restore value.
    There has been a significant amount of money invested and 
we know that there is a lot more to be invested. Right off the 
top, we can identify $27 billion in project funds that will 
really have a significant impact on our community.
    So the bottom line is we are very positive about New 
Orleans. We think given where we are 5 years later, we all have 
a lot to be proud of. We are sitting in a great new facility 
that is state of the art in an area that was as hard hit as 
any. It is really remarkable that we have the benefit of having 
this hearing here today. Thank you for letting me be a part of 
it.

   TESTIMONY OF AMY LIU, DEPUTY DIRECTOR AND SENIOR FELLOW, 
    METROPOLITAN POLICY PROGRAM, THE BROOKINGS INSTITUTION, 
                        WASHINGTON, D.C.

    Ms. Liu. Great. Good morning. I want to thank Senator 
Landrieu and other Members of the Subcommittee for giving me an 
opportunity to present at this very important hearing.
    What I want to do with my 10 minutes is to cover two key 
points. First is that I want to assert the proposition that the 
goal of post-disaster recovery should, as much as possible, 
help a community be more resilient and also to help put that 
community on a path to long-term prosperity. Given those goals, 
then second, how has New Orleans performed on those fronts 
since Hurricane Katrina and what does that mean for Federal and 
State policies going forward.
    So let me talk about resilience. There is no doubt that the 
term ``resilience'' is used in many different ways and applied 
to many different contexts, particularly in a natural disaster 
context, in an ecological context, and in a psychological 
context. What we want to focus on is regional resilience in the 
face of any shock, whether it is a hurricane, an economic 
crisis, or an oil spill.
    And the literature then says, given that definition, how do 
we know a region is resilient? There are two ways to look at 
it. First is the one that you can measure. This graph shows 
that how does a region literally perform after a shock, and 
this map looks at the job growth in New Orleans metropolitan 
area after the last 15 years. New Orleans in general would be 
considered resilient if it bounces back to its prior trend 
line.
    But in this case, in many instances, bouncing back to the 
prior trend line may not be such a good thing if the prior 
trend line was stagnation or decline. This is why many of us 
have been talking about building back better than before. We 
need to transform the city and the metropolitan area in a way 
that we start to see indicators and outcomes that improve upon 
past performance, particularly on key areas of prosperity, the 
economy, opportunity, sustainability, and quality of place and 
quality of life.
    But the second way of looking at regional resilience is the 
extent to which a community has the capacities and the 
characteristics to literally adapt to, minimize, or absorb the 
impact of a shock, and the literature says there are five key 
characteristics a community has to really do that well, and the 
first two are economic. The other three are community.
    A strong, diverse regional economy--if a community has 
this, then if one of their major sectors gets hit hard, whether 
it is an auto sector or an oil and gas sector, it has other 
industries it can fall back on.
    Second, if a community has a large share of skilled and 
educated workers, it is more likely that the people are going 
to be able to adapt to what the changing demands of the 
industry or economy will be.
    Strong social capital--if a community has strong community 
ties, community relationships, engagement, and trust, they are 
more likely to work together to get things done. And community 
competence is about taking that social capital and really 
resulting in effective problem solving.
    And last, wealth. There is no doubt that resources matter--
Federal, State, local, philanthropic, corporate, individual 
resources. If you have that to build a home, invest in the 
capacities of the people, the organizations, or invest in 
reform, you are obviously going to be more adaptive to shocks.
    So given that definition of resilience and prosperity, how 
has greater New Orleans performed along this front in the last 
3 years? The work that Senator Landrieu talked about, which is 
the New Orleans Index at Five, co-produced with the Greater New 
Orleans Community Data Center, we found three findings that, I 
think, are really relevant for today's hearing.
    First is that this region has not just sustained one shock, 
but three shocks in 5 years--Hurricane Katrina, the worst 
recession since the 1930s, and now the oil spill. But despite 
those three crises, this region is becoming more resilient, 
beginning to demonstrate new capacities to transform its 
future, and at the same time beginning to show some emerging 
signs of improving its prosperity better than its past. But 
this region is a work in progress and key challenges do remain, 
as Greg Rigamer described. Therefore, it is really important 
for Federal and State leaders to use the moment of the oil 
spill to build on the progress made since Hurricane Katrina, 
but also to finish some unfinished business that will continue 
to transform this city and region going forward.
    So let me talk first about the good news. So first is that 
of the five factors that can predict resilience, New Orleans 
has actually demonstrated three of those post-Hurricane 
Katrina, and they are highlighted here, and I will just talk 
about them real briefly.
    There is no doubt that everyone talks about the power of 
citizen engagement, of citizen activism that has contributed to 
a lot of the rebuilding underway. But it goes further than 
that. The people and the groups are smarter. They are more 
informed. They are more strategic. They are more sophisticated, 
therefore being more important partners in both advocating for 
reform but also in the implementation of reform. There is more 
capacity in the region, for instance, in the rise of community 
development organizations, nonprofit developers and other 
community groups that have been really critical to neighborhood 
transformation. And obviously other coalitions have been 
enacting reforms.
    All those energies have actually led to some systemic 
changes, which says that this place, this New Orleans is really 
competent, and we are going to hear about some reforms later on 
in this hearing and we have produced essays that have really 
described the outcomes from a lot of these reforms.
    But behind each of these reforms are resources, and this is 
an important part of the recovery story. Behind the increased 
capacity, behind every single one of these reform areas are 
Federal dollars and philanthropic partners who have made all 
these outcomes possible. But let us take a look at the numbers, 
and I am going to skip this one, given the time.
    On the good news, I am going to talk a little bit about the 
economy and opportunity. There are some numbers that are 
showing that this region is rebounding better than before, so 
let us talk about the economy. In our report, we wanted to look 
at those sectors that are most important to the seven-parish, 
ten-parish, and New Orleans metropolitan area. We separated the 
economy from the export sectors and those from the local 
serving jobs. Export sectors matter because they are the 
critical drivers of the region's economy. They are the ones 
that bring value and wealth from outside the region into the 
region. They tend to--for each export job, it creates two to 
three local serving jobs. And they do tend to pay more. In the 
case of New Orleans metropolitan area, it pays $20,000 more 
than the typical local serving job, like a grocery store or a 
dry cleaners and so forth.
    So how are the export sectors in the New Orleans region 
doing? I am going to not--ignore for a moment all the downward-
sloping trend lines. We will come back to that. What I think is 
the positive story here is the upward-sloping red lines, which 
is in the last 20 years, we are starting to see a steady 
emergence of knowledge-based service industries in this region 
in higher education, in legal services, insurance, and that is 
really important for an economy that has been historically 
dependent on oil and gas and tourism.
    The growth in heavy construction and engineering is not 
highlighted in red primarily because it has been trending 
downward for the last 20 years, but got a big bump after 
Hurricane Katrina. What we are still waiting to see is whether 
or not that is a result of purely from the rebuilding 
activities along the Gulf Coast or whether that trend can be 
sustained.
    But the other positive news is that average wages in the 
metropolitan area have increased, and this is really important 
in an economy that has historically been low-wage economy. So 
since 1990, we are seeing an accelerated growth in average 
watches catching up finally to the national average. Some of 
this is the result of the emerging knowledge-based jobs in the 
economy, but also, honestly, because the loss of many low-wage 
tourism jobs after Hurricane Katrina. And no doubt, wages 
matter to the workers.
    Entrepreneurship--if you take a look at the blue line for 
New Orleans, entrepreneurship has really spiked in the 
metropolitan area since the storm, surpassing the national 
average. This is really important because it indicates the 
capacity of innovation in the metropolitan area.
    So those are some of the trend lines that show departures 
from the past, but there is no doubt that there are still 
challenges that remain, and let me focus on the economy for a 
moment. If you take a look at the four largest economic drivers 
in the New Orleans economy in 1980--tourism, oil and gas, 
shipping, ship building--each of these four sectors have been 
generally trending downward for the last 20 or 25 years. As a 
result, the New Orleans economy actually is now smaller than it 
was in 1980.
    I think what is interesting to point out is that tourism 
actually had grown for a while, but it took a huge hit after 
Hurricane Katrina and it has actually never recovered. The same 
four sectors are also the ones that are directly impacted by 
the oil spill.
    I think the big take-away from this graph is that this 
economy here is still dependent on a high number of sectors 
that are shrinking and obviously vulnerable to the recent 
crises and we need to rethink how we strengthen and diversify 
this economy.
    But if we want to modernize and diversify the regional 
economy, it is going to need skilled workers, and in this 
regard, we are starting to see that the share of college 
educated workers in the New Orleans area has actually plateaued 
since post-Hurricane Katrina, which is counter to the national 
trend and even counter to its previous history.
    Income disparities remain stark in this region between 
racial groups, and the only thing I would highlight here is in 
the yellow-green bars, is that the typical African-American 
household in New Orleans earns about half of the typical--the 
average wage for a black household, $32,000 compared to $58,000 
of a white household.
    And we have heard that poverty has dropped in the city. As 
you can see from the yellow line in New Orleans, this is 
primarily because of the changing demographics of the city 
after the storm. But what is interesting to note here is the 
flip that has occurred after Hurricane Katrina. There are now 
more poor people in the suburbs of New Orleans than in the city 
itself, 93,000 low-income people in the surrounding parishes 
versus 68,000 in the city.
    And even though we have seen a growth in wages in the area, 
it has not kept pace with the growth of housing costs, and so 
you look at the yellow line in the Orleans Parish alone, 58 
percent, nearly 60 percent of renters in the community pay more 
than 35 percent of their incomes on rent. That is enormously 
high and much higher than the national average of 41 percent. 
This is also a burden for homeowners.
    So those are some of the challenges, and let me just close 
with one final slide, is what do we do with all of this. One of 
the advisors to our project, a leading leader in the community 
debate, simply said to us, the one big take-away I want you to 
tell folks from your report is that despite all the crises and 
all the emergencies that this community has faced, we need to 
keep our eye on transformation and the goal of long-term 
prosperity, and I think that was very well said.
    So what do we do at the Federal and State level to really 
ensure that? No doubt we need to sustain and build on the 
positive progress made on reforms post-Hurricane Katrina. Those 
are early developments, and there is still a lot of unfinished 
business there, and some of those gains are actually starting 
to be unraveled because of the State budget cuts.
    I think the recession and the oil spill does present new 
opportunities to do more to move this region forward, and these 
are just some sample ideas. We do need to, as we think about 
the Mavis plan, what we think about the post-oil spill recovery 
plan, which is focused on the economy and the environment, we 
need to think about ways to strengthen the existing industries, 
particularly like the Port, if that is going to be part of, 
say, helping the President's goal of doubling exports. We could 
continue to diversify the economy with a clear focus on those 
industries that are growing because that is an asset. We do 
need to strengthen skills in the area towards those growth 
sectors. And again, the more you diversify the economy, the 
more you strengthen skills, the more you increase the 
resilience of the region. Obviously, we want to make sure that 
minority-and women-owned firms participate in the clean-up and 
recovery so we ensure that we grow the black and minority 
middle class.
    And most importantly, we obviously want to focus on 
restoring the wetlands as part of building on the levee 
investments that we have made so far. And, of course, restoring 
the wetlands in a comprehensive way will not only generate 
jobs, but with that one sector focused on high-construction 
engineering, we may be able to actually convert wetland 
restoration and coastal protection and convert that into a true 
industry in the Gulf region.
    So let me just close by saying if we do all these things, I 
think we are at the verge of really witnessing probably one of 
the most catalytic urban transformations in recent history.
    Senator Landrieu. Thank you. Let us give them a round of 
applause. [Applause.]

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. I would like to officially call the 
meeting of the Subcommittee on Disaster Recovery into focus and 
thank the members of the Louisiana Congressional delegation for 
joining me at this official hearing.
    By way of just very brief introduction, this Subcommittee 
did not exist when Hurricanes Katrina and Rita and the 
subsequent storms had hit Louisiana 5 years ago. The Senate 
reorganized their Committee structure and allowed this 
Subcommittee to be formed. I am very grateful to be able to 
serve as Chairman of this Subcommittee, and we have conducted 
any number of hearings over the course of the last 5 years 
related to smarter, better disaster response and recovery and I 
am pleased to be able to continue to chair this Subcommittee.
    The members that are joining me are not members of this 
Subcommittee, but as members of the Louisiana delegation, they 
have become experts on disaster recovery themselves and will be 
giving opening remarks just briefly.
    I want to thank Amy Liu and Greg Rigamer for a wonderful 
presentation. It is comforting as a leader to hear such strong 
and focused and objective data that will help all of us to make 
really hopefully good and smart decisions moving forward. That 
data is a blessing, because in the first 2 years after 
Hurricane Katrina, it was very hard to figure out what was up, 
what was down, who was here, who was there, and it really--I 
thank Brookings for following this so closely and for Greg 
Rigamer's group that gives the leaders making these decisions 
the information that we need on your behalf to try to make the 
best situation moving forward.
    I am going to try to minimize what I say. I have a lengthy 
written opening statement, but I am going to summarize it to 
keep within 3 minutes and ask my colleagues to do the same.
    I just want to touch briefly on a few important challenges 
that lie ahead. We are pleased to have an extraordinary two 
panels of Federal and State and local officials with us today.
    First, the challenge for this region will always be--the 
most important challenge for us will always be flood control, 
levee protection, and coastal restoration. No challenge, not 
housing, not economy, will ever surpass that as number one. It 
is because we live in the ninth largest delta in the world. We 
have to recognize that we live on, around, and some of us 
actually in water. We have to learn how to manage it. We are 
learning all sorts of new strategies and you will hear some of 
that today.
    Housing and neighborhoods are so important. There are new 
ideas coming forward as the Road Home Program wraps up. You 
have seen the challenge for multi-family housing, senior 
housing, more affordable rental housing for workers as we 
struggle to bring our businesses and workers back. Land bank 
concepts are exciting. We heard about that today in St. 
Bernard. We are pleased to hear some exciting new opportunities 
for housing and neighborhood revitalization.
    FEMA reform, we have a better and smarter FEMA today and we 
are very grateful. Craig Fugate is here, our Administrator. We 
have seen example after example this week of FEMA saying yes as 
opposed to no. Tony Russell is in the audience. You will hear 
from them later.
    Building smarter schools, you are in one right now. This is 
a very smart redevelopment project. I cut a ribbon at Salmen 
High School in Slidell yesterday, and today we got an 
announcement that $1.8 billion is coming to this region for 
rebuilding smarter schools that stabilize our community. So we 
are excited about the transformation of the new system of 
public education that is emerging, building on the strengths of 
what was here and transforming public education in the places 
that it needed to be.
    New models for health care delivery, you will hear some of 
that today. We didn't have the greatest health care system in 
this region before, although there were places like St. Bernard 
and others that were very proud of the health care system. St. 
Bernard today does not have a hospital. If you tried to deliver 
a baby here in St. Bernard, it would take you a minimum of 30 
minutes to get to a delivery room. And if it was traffic, it 
might take you an hour and a half. So needless to say, we have 
many challenges with hospitals in the region, particularly here 
in St. Bernard. But the good news is community clinics have 
been developed, over 92, and we are excited about a new model 
of delivery that is focused on preventive care and real doctor-
patient relationships that are going to be very important.
    You heard about the effective nonprofits that are emerging. 
You will hear more about that today. It really is quite 
exciting to see neighborhood associations, when they call a 
meeting, 500 people show up and they keep showing up because 
they do care very much about what is being done and going on. 
We have lots of nonprofits all over the region that have 
received national awards. The St. Bernard Project is here in 
the house, Cable News Network (CNN) Heroes of the Year Award, 
and I could list 200 to 300, including those promoting new 
entrepreneurship.
    Criminal justice reform is an exciting thing that is 
happening in our community, and I will say in conclusion, I 
thank the Brookings Institute for their support of our 
delegation and our friends in Washington, and we have many 
allies and friends from both parties and officials that are 
helping us to really capture the opportunity of this oil spill 
to help lay on top of what we are going to see today as 
progress made.
    And specifically in closing, British Petroleum (BP) under 
the law, the polluter under the law, responsible party under 
the law, is going to pay to the Federal Government anywhere 
from $5 billion to $20 billion in penalties for violating the 
law. If they are found simply negligent, they will pay $5 
billion. If they are found grossly negligent, they will pay 
approximately $20 billion, assuming five billion barrels was 
spilled, and that number is rough. Our delegation wants to 
claim a minimum of 80 percent of that penalty money to be spent 
on the Gulf Coast in communities that have been hard hit, from 
Florida to Texas, from the storms in 2005 to the current 
storms. You have seen the charts. Oil and gas down. 
Shipbuilding down. Tourism down. The Gulf Coast is a very 
vibrant region. We will not be able to recover, though, without 
additional resources, and that penalty money is going to be 
something that we are very focused on, and others.
    Let me turn in seniority to Charlie Melancon, the 
Congressman from this district.

    TESTIMONY OF HON. CHARLIE MELANCON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Melancon. Thank you, Senator Landrieu. I appreciate you 
giving me the opportunity to say a few words. I appreciate you 
convening this hearing today and I particularly appreciate the 
fact that we are doing it here in the Third Congressional 
District and in the community of Chalmette, St. Bernard Parish.
    In the 5 years since Hurricanes Katrina and Rita devastated 
Louisiana, your leadership in helping our State and its people 
recover has been unmatched. We are at this point today because 
of your persistence and your refusal to accept no for an answer 
when it comes to delivering for Louisiana.
    So today's hearing will give us the opportunity to hear 
from experts, elected officials, and agency heads who have been 
on the ground driving this recovery every day. We will hear 
about the exciting progress that has been made and the many 
difficulties that remain. We will take this information back to 
Congress, share with our colleagues, and push for solutions 
that ensure that we meet the challenges of rebuilding our State 
stronger than ever before.
    Five years later, many needs still remain, from education 
to health care to housing, law enforcement, and we will hear 
testimony today about those priorities. But for today, to fully 
recover, we need a serious Federal commitment to rebuilding our 
coastline and protecting our homes and communities here in 
South Louisiana.
    Our coastal wetlands serve as the first line of defense 
against hurricanes, yet we are still losing a football field of 
land every half hour, leaving our towns more exposed to the 
storms from the Gulf with each passing day. Progress is being 
made. The House of Representatives recently passed my amendment 
to invest over $1 billion in penalties from BP in coastal 
restoration projects along the coast, and Senator Landrieu is 
pushing for similar, however better and more money, funding in 
the Senate. So I encourage the Senate to cooperate with our 
senior Senator and I encourage the President and his 
Administration to support these efforts.
    While the levee system has been significantly strengthened 
in New Orleans, hurricane protection throughout the rest of 
South Louisiana is still well below that which is needed to 
protect our people from another Hurricane Katrina or another 
Hurricane Rita. Many of the communities that I represent have 
little or no hurricane protection, as critical projects are 
delayed year after year. Morgans [ph.] to the Gulf, for 
example, has been on the drawing boards for over 15 years. 
Inadequate funding coupled with bureaucratic red tape have 
repeatedly stalled this important hurricane protection project, 
leaving approximately 200 people in the Terrebonne and 
Lafourche Parish area in harm's way. This should not be.
    We need a partner, not a parent, to complete these projects 
in Coastal Louisiana. Our State has the best coastal engineers 
and know-how in the country, but until the Federal Government 
decides to support our efforts, we will not make the progress 
we need. Louisiana needs a serious commitment from the Federal 
Government to protect all of our coastal communities from major 
hurricanes before it is too late.
    This weekend, we reflect on a solemn anniversary for the 
people of South Louisiana and the entire Gulf Coast and our 
entire Nation. But this is also a time to celebrate the 
progress we have made, both individually and as a community, in 
rebuilding what we have lost to these storms.
    So let us honor the spirit today and recommit to building a 
better future for Louisiana. And again, I thank you, Senator 
Landrieu, for holding this hearing.
    Senator Landrieu. Thank you. Congressman Scalise.

 TESTIMONY OF HON. STEVE SCALISE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you, Senator Landrieu, for having 
today's hearing and for inviting our panelists to participate. 
I also want to thank our entire delegation for the work that 
has been done since Hurricane Katrina. Only through the 
teamwork and the shared love and commitment to our State have 
we been able to clear the hurdles necessary to accelerate our 
recovery.
    I also want to thank our witnesses who are here today for 
their continued work on behalf of Louisiana's recovery. I have 
met with many of you on multiple occasions to discuss our 
recovery and I once again look forward to hearing your comments 
today and working with you to resolve the remaining issues from 
Hurricane Katrina.
    It is hard to believe that Sunday marks the fifth 
anniversary since Hurricane Katrina's landfall. The images we 
saw and the challenges we faced on August 29, 2005 and the days 
and months and even years since are still fresh in everyone's 
mind and will not be forgotten. Hurricane Katrina is a story of 
the strength and perseverance of the people of South Louisiana. 
I think it is very appropriate that we are here in St. Bernard 
Parish because I think the people of St. Bernard are the 
embodiment of that strength and resilience, and you can see 
today the progress that has been made, and as you are leaving 
and drive away, you can see the work that is still left to be 
done. So this parish is an encompassment of the entire region's 
challenges that have both been achieved but still are faced.
    During these 5 years, we have experienced many successes in 
our recovery and made significant progress. But as we all know, 
there have been setbacks and there is still work left to be 
done. I think we can all agree that these past 5 years have 
been a struggle, but one that the people of our State, 
including many in this room, are continuing to work through 
every day and will continue to do so until our recovery is 
complete and until we have achieved our ultimate goal of 
rebuilding better, stronger, and smarter than before the storm.
    In order to do so, we must resolve the issues still 
lingering from Hurricane Katrina and make necessary 
improvements to the regulations and laws that govern disaster 
response and recovery. And we must make the investment 
necessary to protect our coast and to finally achieve Category 
Five hurricane protection.
    One issue that we are still dealing with 5 years later is 
the forgiveness of Special Community Disaster Loans (SCDL). 
While a number of these loans have recently been forgiven, an 
overwhelming majority of applicants did not even qualify and 
were recently rejected. In my district, only 5 of 17 applicants 
qualified for partial or complete forgiveness. I continue to 
call on FEMA and the Administration to resolve these 
disparities so that communities that were equally devastated by 
Hurricane Katrina are not treated unfairly in the Community 
Disaster Loan (CDL) process.
    In addition, we have learned many lessons from and are 
still facing problems with the provisions of the Stafford Act 
and interpretations of FEMA regulations. I have introduced 
legislation, as has Senator Landrieu and other members of our 
delegation, to make reforms to the Stafford Act, including 
expediting the public assistance appeals process and improving 
cost sharing for debris removal and hazard mitigation.
    Debris removal was a significant issue in my district 
following Hurricane Katrina, especially in St. Tammany Parish. 
I know Parish President Kevin Davis is here and he will testify 
about the struggles his parish faced. They learned many lessons 
about debris removal and project worksheets, including how the 
use or lack of certain words or phrases in a project worksheet 
would drastically impact its final outcome. The fact that we 
are still working through some of these interpretations and 
assessments 5 years later is unacceptable. We must build upon 
the progress that has been made by FEMA and The Governor's 
Office of Homeland Securities Emergency Preparedness (GOHSEP) 
to close out the remaining projects.
    And finally, we must ensure that the Corps of Engineers and 
the Administration commit to supporting Category Five hurricane 
protection for South Louisiana. This includes barrier 
protection at the mouth of Lake Pontchartrain, which will 
protect both the north and south shores of the lake, as well as 
major investments in restoring our vanishing coast. The BP oil 
spill has underscored the critical nature of Louisiana's coast 
and we must redouble our efforts to protect and restore our 
valuable wetlands. I share the sentiments of Senator Landrieu 
that at least 80 percent of the disaster penalties be dedicated 
to coastal restoration efforts.
    As we come to the fifth anniversary of Hurricane Katrina, 
we are at a critical juncture in our recovery. Over the last 5 
years, we have cleaned up and cleared away the debris. We have 
rebuilt many communities and are still in the process of 
rebuilding others. We have learned from the challenges we faced 
and are taking vital steps to complete the remaining work and 
complete our recovery. Now we must continue to move forward and 
build upon the foundation that has been set over these 5 years.
    On this fifth anniversary, we stand on a strong foundation 
for future growth, improvement, and prosperity for families 
throughout South Louisiana. Moving forward, I am eager to 
continue working with my colleagues in Congress and with the 
resilient citizens of our region to shape our home into a more 
prosperous place where all can take part in preserving and 
strengthening our future. Thank you, and I yield back.
    Senator Landrieu. Thank you so much, Congressman Scalise.
    Congressman Cao, who represents the district of New Orleans 
and parts of----
    Mr. Cao. The West Bank.
    Senator Landrieu [continuing]. The West Bank, yes.

TESTIMONY OF HON. JOSEPH CAO, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF LOUISIANA

    Mr. Cao. Thank you very much, Senator, and I would like to 
thank you personally for bringing us here together for this 
occasion.
    As I reflect on the fifth anniversary of Hurricane Katrina, 
I am confronted, really, with mixed emotions, a sense of 
sadness because Hurricane Katrina cost nearly 2,000 lives, 
destroyed thousands of properties. I remember returning home to 
my own house and seeing that it was basically destroyed by 8 
feet of water and went through the struggles of rebuilding, 
like thousands of us here.
    But also a sense of optimism in the sense that when we look 
at all of the projects that are springing up thanks to the 
partnerships that we have built with the Federal Government--
thank you to the Secretary of HUD, Shaun Donovan and his hard 
work, with Paul Rainwater and his hard work with FEMA and their 
continued cooperation with us to help us to rebuild--the sense 
of optimism is there and I can feel it as I drive around the 
city, talking to the thousands of people that I have met in the 
past 2 years.
    When we look at our future, we look at the diversification 
of our economy. We are looking at building up our levees, the 
restoring of our coasts, and feel more secure about the future 
of this region.
    And when we talk to businesses and when we talk to 
citizens, we see that New Orleans has become a hotbed for young 
entrepreneurs and start-up businesses. If we look at our 
schools, it has undergone a much needed and overdue 
transformation, and every student, obviously, deserves a 
quality education. But we have to make sure that our progress 
must continue and we have to do everything that we can to 
provide our children with the best possible education.
    But we must also be cognizant of the many problems that we 
still have. In the City of New Orleans, obviously, we have to 
get crime under control. We have to be focused more on how to 
get criminals off the streets while addressing the root causes 
of crime and to end this violence. I believe that we need to 
have more focus on better educating our children, to provide 
youth programs and initiatives as well as other projects that 
will enable our children to stay off the street and to be more 
productive.
    As we go forward, we have to look at our continued 
rebuilding of our health care system in the New Orleans East 
region. We still do not have adequate health care to provide 
services to the thousands of people who live in Northeast, even 
though we have made great strides in the past month by 
purchasing the Methodist Hospital, but we still need about $100 
million to restore that building, which in this day and age 
seems like an insurmountable hill that we have to climb.
    But given all of the problems that we continue to face, 
again, I cannot help but to feel great optimism, great 
enthusiasm for the future of New Orleans and the region, and 
just listening to Dr. Liu and her presentation, to have a 
clearer picture of what we need to do in order to continue our 
transformation and to continue pushing forward the recovery of 
our wonderful State.
    So with that, I would like to thank the Senator, the other 
members of the delegation who are here. I would like to 
personally thank the Secretary of HUD, who has been wonderful 
to the City of New Orleans and to the region with his 
commitment, and also to the other members of the Presidential 
cabinet who have been committed and continue to commit all of 
their resources to help rebuild our great State. So thank you, 
and I look forward to hearing what he has to say.
    Senator Landrieu. Thank you, Congressman Cao, so much, and 
I thank again my colleagues for joining me for this important 
hearing.
    I would like to introduce very quickly the panel, the first 
panel that is with us. Shaun Donovan is Secretary of Housing 
and Urban Development. He previously served as the Commissioner 
of New York City Department of Housing, Preservation, and 
Development. Before that, he was in the private sector and 
became an expert on financing issues relative to affordable 
housing. In my view, he is one of the most outstanding leaders 
at the Federal level today and we are grateful for him to be 
here and his absolutely extraordinary commitment to this region 
and his multiple visits, both to Orleans, Jefferson, St. 
Bernard, Plaquemines, and the region.
    Paul Rainwater is now Commissioner of Administration. He 
has held in the last 5 years almost every job in the State----
[Laughter.]
    Senator Landrieu [continuing]. And we are grateful----
    Mr. Rainwater. Some in Washington, too.
    Senator Landrieu. And some in Washington, too. We are all 
so grateful for his leadership. He currently serves as 
Commissioner of Administration. He previously served as Chief 
of Staff to the Governor, Executive Director of the Louisiana 
Recovery Authority. He was Legislative Director, happily, in my 
office. He also served as Chief Administrative Officer for the 
City of Lake Charles. And most importantly, he is a Colonel in 
the Louisiana Army National Guard and was on duty the night 
that Hurricane Katrina came ashore. He has done two tours of 
Iraq, two tours overseas, and we are grateful, Paul, for your 
service to our State and our Nation.
    Doris Voitier became Superintendent of St. Bernard Public 
Schools in 2004 and has a 33-year career in the St. Bernard 
School System. She is the first Louisianan and first K through 
12 educator to be awarded the John F. Kennedy Profile in 
Courage Award, which was an extraordinary honor to our entire 
State when she received that award on the stage in Washington 
in the aftermath of Hurricane Katrina. She has almost 
singlehandedly, although with some help from many in this room, 
but almost singlehandedly rebuilt a school system that was 
completely destroyed, and you are sitting in one of those 
buildings today. She holds a B.A. and Master's degree in 
Education from the University of New Orleans and is truly one 
of our outstanding leaders.
    Mark Schexnayder is a Marine Biologist and Coastal 
Scientist. He has intimate knowledge of the needs of fishermen 
and the ecosystem in Louisiana. He graduated from Southeastern 
Louisiana University and he has been doing a tremendous amount 
of work on our coastal issues and our fishery issues.
    Lauren Anderson serves as the Chief Executive Officer (CEO) 
of Neighborhood Housing Services in New Orleans since 1992. She 
has been working to increase home ownership, affordable 
housing, enhance the city's neighborhoods, and she previously 
served as Housing Coordinator for Armstrong Redevelopment in 
New Orleans and was one of the leaders--and is one of the 
leaders in the redevelopment of the Treme neighborhood that is 
now receiving national and international fame because of the 
show that is on television.
    So we thank all of you for being here. And Lauren 
represents, as I said, hundreds of extraordinary nonprofits 
that have reemerged, emerged, or grown to help us handle this 
challenge.
    Mr. Secretary, we will start with you.

TESTIMONY OF HON. SHAUN DONOVAN,\1\ SECRETARY, U.S. DEPARTMENT 
                OF HOUSING AND URBAN DEVELOPMENT

    Secretary Donovan. Good morning, Chairman Landrieu and 
Members of the Subcommittee. Thank you for inviting me today to 
testify before you on the fifth anniversary of Hurricane 
Katrina as part of my sixth trip to the Gulf Coast since 
becoming HUD Secretary.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Donovan appears in the appendix 
on page 53.
---------------------------------------------------------------------------
    From my first visit with Secretary Napolitano, where we 
announced millions of dollars in funding to stimulate long-term 
recovery, to volunteering with my wife and two boys as part of 
the St. Bernard Project last summer, it has been critical to 
see the progress we are making and the work that still lies 
ahead, particularly in the wake of the recent oil spill. So 
thank you for this opportunity, and more importantly, thank you 
for your leadership and remarkable friendship over this time.
    I also want to thank each and every member of the 
delegation that is here. I have to work personally with you, 
not only to see your enormous commitment to this region, but 
also to see the relentless focus you bring on ensuring that 
this recovery continues, and you have my pledge to continue to 
work side-by-side with you in that effort.
    Since taking office, the Obama Administration has worked 
hard to provide residents of the Gulf Coast with the tools that 
they need to recover and to rebuild their lives and 
communities. Today, I would like to discuss the scope of HUD's 
efforts to make that possible, where we were when President 
Obama took office, the progress we have made since that time, 
and the steps we still need to take to ensure that the 
resources we provided are used in the most effective way 
possible, and I have provided more complete testimony for the 
record.
    When President Obama took office 3\1/2\ years ago--when 
President Obama took office a year-and-a-half ago, nearly 
40,000 families who had been displaced by the storms were still 
relying on government assistance to find housing. And within 
days of his inauguration, I discovered that more than 30,000 of 
those families were on the verge of losing that assistance and 
potentially their homes when the Disaster Housing Assistance 
Program (DHAP) would come to an end. Working with nearly 350 
Public Housing Agencies around the country, we helped all of 
these families find permanent housing by extending DHAP for an 
additional 6 months, providing comprehensive case management, 
and 12,300 Housing Choice Vouchers to the most vulnerable 
families.
    We also worked closely with our partners across the 
Administration. From the 7,600 families that remained in 
temporary housing units throughout the Gulf Coast when we took 
office, FEMA and HUD worked together to move as many of these 
families as possible into permanent housing. All told, because 
of these efforts, Madam Chairman, I am proud to say to you 
today that of the 40,000 families who relied on temporary 
government housing assistance when we took office, we have 
helped 98 percent of them move into permanent housing. But we 
will not rest until we have completed the job for the remaining 
883 families.
    One of the reasons we have made progress is that we 
realized early on that far too many Gulf Coast residents, 
through no fault of their own, had become stuck in the recovery 
process due to numerous challenges and barriers that left them 
unable to complete the rebuilding of their homes or their 
lives. That is why since taking office HUD has provided the 
additional clarity and guidance to States that gives them the 
flexibility to address these so-called unmet needs, including 
modifying a rigid duplication of benefits rule which failed to 
account for the true cost of displacement.
    My experience with the St. Bernard Project that I mentioned 
earlier provided a powerful example of how we could get 
resources to people on the ground more quickly and effectively. 
Spending a day with my family rebuilding the homes of an 
elderly woman living alone and a retired couple struggling with 
advanced Alzheimer's disease, I saw for myself who has borne 
the greatest need of the road home, our most vulnerable 
population.
    Perhaps most important of all, the work of nonprofits like 
the St. Bernard Project affirmed my belief that these 
extraordinary organizations could do even more with the support 
of a true Federal partner. Indeed, we have already seen how 
nonprofit organizations partnering with nonprofit rebuilding 
programs run by the State of Louisiana and Mississippi have 
housed hundreds of Hurricane Katrina and Hurricane Rita 
victims. That is why we have provided $23 million in funding to 
these groups under the Nonprofit Rebuilding Program of 
Louisiana to encourage their assistance, as well as $28 million 
under Mississippi's Neighborhood Rental Restoration Project.
    With hundreds of thousands of homes damaged and destroyed, 
Louisiana's Road Home Program is among the largest housing 
efforts ever undertaken by a State in our Nation's history, 
assisting homeowners across more than two dozen parishes 
throughout all of Southern Louisiana and nearly 46,000 in 
Orleans Parish alone. A year ago, more than 4,000 eligible 
applicants had yet to receive their program award. By working 
with the State, we have reduced that number to 170, and we have 
resolved more than 1,700 appeals over the last year with only 
103 remaining. Last year, we removed the $50,000 cap on grants 
to help low-and moderate-income homeowners rebuild their homes. 
This change has put nearly $400 million in rebuilding resources 
in the hands of homeowners with modest incomes.
    None of that is to suggest the job is over, Madam Chairman. 
In Louisiana, while the Road Home Program is close to its end, 
we recognize the decisions made by the previous Administration 
have left some families with ongoing difficulties and the Obama 
Administration remains committed to getting those families the 
help they need. As part of this commitment, HUD's Office of 
Fair Housing and Equal Opportunity is investigating several 
complaints concerning practices that may be impeding the 
availability of Federally-assisted housing to families most in 
need, as well as new rental permit practices that allegedly 
restrict rental housing for African-Americans attempting to 
return to their homes after Hurricane Katrina. No one should 
have to wonder if the color of their skin somehow influenced 
whether they could receive a mortgage, access to economic 
opportunity, or disaster recovery assistance.
    But this isn't just about helping families who are living 
in temporary housing or at risk of homelessness, Madam 
Chairman. It is also about rebuilding the region's housing 
stock for families who have yet to return. It is also about 
helping a community that at one point had lost half its 
population and is now back over 90 percent, not only rebuild 
what was there before the storm, but rebuild stronger and 
smarter.
    One of the most important challenges we face today is 
vacant buildings and blight across the metropolitan area, where 
we estimate there are 59,000 blighted units today. We have made 
progress since we came into office. This number has been 
reduced by 14 percent. But to truly address the problem of 
blight, we must go beyond recovery to revitalization that also 
solves the problems that existed before the storm, when the 
metropolitan area had one of the highest per capita vacancy 
rates in the country, with almost 30,000 vacant properties.
    In that respect, the Neighborhood Stabilization Program 
(NSP) can be a powerful tool, helping communities purchase and 
redevelop vacant and abandoned homes. With Mayor Landrieu's 
leadership, guidance from HUD, a professional procurement 
process, and technical assistance provided by enterprise 
community partners, I am pleased to report that HUD expects New 
Orleans to obligate 100 percent of its Neighborhood 
Stabilization Grant in the next few weeks, targeting these 
funds to the families and neighborhoods where they are needed 
most.
    As part of the competitively awarded second round of NSP 
funding, the New Orleans Redevelopment Authority received a $29 
million grant from HUD that will help the Mayor's plan to 
combat blight by demolishing hundreds of blighted properties, 
building and rehabbing hundreds of affordable rental homes in 
their place, and providing homebuyer counseling and other 
services essential to the neighborhood success.
    I am also pleased to say that we are making real progress 
building affordable rental housing, which prior to Hurricane 
Katrina comprised half of all the housing stock here in New 
Orleans. In the wake of the storm, public housing developments 
known as the Big Four were severely damaged, disrupting the 
lives of some of the city's most vulnerable populations. HUD is 
committed to rebuilding the Big Four and rebuilding the New 
Orleans Housing Authority under the leadership of David 
Gilmore.
    When we first came into office, the Housing Authority of 
New Orleans (HANO) was in disarray. Today, it has leased up 
thousands more vouchers than were in use before the storm. 
Combined with our other efforts to spur privately-owned 
affordable housing developments, we have created 8,400 
affordable homes in New Orleans since taking office, and in 
total, this means there is more Federally-assisted housing in 
New Orleans today than there was before the storm.
    But even still, we are committed to doing more. When we 
first came into office, not a single family had returned to the 
Big Four. Today, all four complexes are under construction and 
hundreds of families have returned to their homes there. 
Programs that were simply stuck under the previous 
Administration, such as the State of Louisiana's $684 million 
Small Rental Property Program, are now producing thousands of 
units with expenditures of $7.3 million per month, more than 
five times before I became Secretary.
    But as you also know, this work depends on a mixture of 
Federal, State, and private sector funds, which will require an 
extension of the placed-in-service date on Gulf Opportunity 
Zone Low-Income Housing Tax Credits (LIHTCs). Without an 
extension of the GO-Zone Tax Credits, more than 6,000 Gulf 
Coast affordable housing units are unlikely to be completed. 
This is a top priority for this Administration, which is why I 
am so thankful for the leadership provided by the members of 
the Louisiana delegation that are here today to ensure that the 
extension will be passed by the House and close to passage in 
the Senate. And I am committed to working with all of you to 
send this critical legislation to President Obama's desk.
    Community Development Block Grant (CDBG) Disaster Recovery 
Funds have also been critical to New Orleans to help forge 
partnerships that will create jobs out of this affordable 
housing development. One example is Louisiana's partnership 
with a consortium of local nonprofits created to offer vital 
assistance in the Small Rental Property Program I mentioned 
earlier, which has produced over 3,000 affordable homes in the 
State. I am happy to say that the City of New Orleans has 
committed to participating in this partnership, as well, by 
creating a bonding pool to ensure small and minority businesses 
participate in redevelopment construction projects. The Housing 
Authority of New Orleans has pledged to join with the city to 
provide similar opportunities in HANO developments.
    Of course, comprehensive community development means more 
than just housing or economic development. It also mean quality 
health care for community residents. Toward that end today, 
Madam Chairman, I am pleased to announce that HUD has approved 
the use of CDBG funds to help keep 87 community health clinics 
open, reducing the strain on emergency rooms and improving 
access to health care for the families who need it most. 
[Applause.]
    Last, let me say a word about the lessons we have learned. 
Perhaps the most important is that when it comes to disaster 
recovery, it is not just how much money government spends, but 
how we can spend it better and more effectively. Too often in 
the past, the Federal Government has paid to rebuild what was 
there before the storm rather than to build back stronger and 
smarter, helping avoid disaster when the next storm strikes.
    According to an independent study by the National Institute 
of Building Sciences, every dollar spent on disaster mitigation 
saves taxpayers $4 in disaster recovery expenses. That is why 
HUD created the Disaster Relief Enhancement Fund, a $300 
million pool to incentivize States recovering from disasters to 
use their funds in a way that also mitigate against future 
disasters and prepare them for future recoveries.
    That is why I am pleased to announce today that HUD is 
awarding Louisiana over $32 million and Texas nearly $68 
million from the Enhancement Fund, to complement, enhance, and 
scale-up their innovative efforts. We are also awarding funds 
to Mississippi and Florida to help them as they work to recover 
from the Gulf oil spill.
    And so, Madam Chairman, as you can see, while we have a 
ways to go, we are making progress for a Gulf Coast region 
still struggling to regain its footing. I know it isn't easy, 
and I want every resident of this proud region to know that 
this Administration will never forget you. Indeed, at HUD, we 
have made Gulf Coast recovery one of the very measures of our 
agency's success for the next 5 years and we expect to be held 
accountable for producing results. But as long as we continue 
to cut through red tape, listen to the voices of people on the 
ground, and work together to get help to families and 
neighborhoods that need it most, across agency silos, at the 
Federal, State, and local levels, I have no doubt we will 
continue to produce results, results this region needs to not 
only rebuild, but rebuild stronger, better, and faster.
    That is what moving from recovery to revitalization is all 
about and it remains our goal today. Thank you.
    Senator Landrieu. Thank you so much. I think that deserves 
a round of applause. [Applause.]
    Thank you for that passionate, informed testimony.
    The rest of the panel, I am going to ask if you could limit 
your remarks to 5 minutes, and we have a second panel starting, 
but the Secretary was given great latitude and we are thrilled 
for the funding that he has provided. And he could have as much 
time as he wants if he keeps giving out money like that. 
[Laughter.]
    Yes, we will invite him back next week. Mr. Rainwater.

TESTIMONY OF PAUL RAINWATER,\1\ COMMISSIONER OF ADMINISTRATION, 
 STATE OF LOUISIANA, AND FORMER EXECUTIVE DIRECTOR, LOUISIANA 
                       RECOVERY AUTHORITY

    Mr. Rainwater. Thank you, Senator Landrieu. Again, it was a 
great honor to serve with you in Washington, D.C., as your 
Legislative Director, and we appreciate very much your tireless 
efforts, and also to the Congressional delegation who I have 
all worked with very closely over these last 5 years.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rainwater appears in the appendix 
on page 75.
---------------------------------------------------------------------------
    I have had the honor of working through this disaster from 
day one as part of the original evacuation team that managed 
the I-10 causeway site and have been humbled by it, to be very 
frank with you. And it is humbling to be with the folks here in 
St. Bernard, who I remember going back after managing the I-10 
causeway site, going back to Lake Charles, and the first 
evacuee that the City of Lake Charles actually received was an 
older gentleman from St. Bernard Parish who got off a bus and 
just said, ``Thank you for having us.'' It is those memories 
that are ingrained in my mind for the rest of my life.
    When I took the job with you and then came down to work 
with Governor Jindal to run the Louisiana Recovery Authority 
(LRA), I took it with that in mind, that whatever we did, we 
needed to make this right from a State perspective. Governor 
Jindal consolidated our operations here and said, ``Get to 
work.'' Let us get rid of the silos, get rid of the turf, work 
with our Federal partners, and let us get this moving. And I 
will say that we struggled for the first year.
    Then when Shaun Donovan took over, Secretary Donovan took 
over HUD, and FEMA Administrator Craig Fugate came in and took 
over the Federal Emergency Management Agency, we began to make 
progress, and I will say thank you to Secretary Donovan for his 
partnership. He got it right off the bat. When we began to look 
at what was the wolf closest at the door to us, it was the 
Disaster Housing Assistance Program. I went and briefed him and 
he got it within 5 minutes and said, ``I am going to make this 
right,'' and you did, Secretary, and I thank you for that.
    Secretary Donovan. Thank you.
    Mr. Rainwater. We have continued to make great progress on 
the recovery. Of the $13.4 billion that we had in Community 
Development Block Grant money in the Road Home Program, we have 
put out $8.6 billion. We know that we have 3,000 folks left to 
serve. We have hired Legal Services to go in and work with 
those folks. Many of them have title issues that we all know 
about and we have talked about that issue before. We continue 
to do outreach to those citizens, understanding that they are 
the most underserved in our community, and we will continue to 
work through those issues and providing extensions along the 
way as best we can within the rules and regulations.
    We have listened to people. The Affordable Compensation 
Grant Program, which again, Secretary Donovan, we briefed him 
on it, he understood it, helping us raise the cap. I think he, 
as I understood the story, walked over to the Office of 
Management and Budget (OMB) himself--I don't know if I was 
supposed to tell that story or not--and made the presentation 
himself, and Fred Thombar [ph.], who is one of his special 
assistants, called and said, ``Hey, the Secretary is handling 
this.''
    We have put out $400 million, and you can see the progress 
for people who needed that money. Now, we just didn't hand out 
a check. The Secretary said there has to be some rules around 
this. We have to put a case management program, and we did. And 
we have made great progress in those terms.
    Our elevation program, HUD is not used to doing elevation 
programs, and so when we went and said, look, we are working 
with Administrator Fugate on moving these elevation dollars out 
through the traditional Housing Mitigation Program, we need to 
front-load some of these elevation projects for homeowners 
using a $30,000 grant, we put out over $897 million in 
elevation grants, and you can see, obviously, that progress as 
you go around here and look at the homes in St. Bernard and 
Orleans and Cameron and all through the recovery area. People 
are elevating their homes.
    And we are doing things, I think, much smarter here in 
Louisiana, with new building codes, with elevating homes. As 
you and I have worked with the Smart Growth Summit last week 
and talking about what we are doing with urban planning and the 
things that we are doing in the State, we are doing things 
smart and I am proud to be part of that culture of change, and 
it is very humbling to sit next to Doris, who has built some of 
the best schools in the country, I think, as you look at the 
sorts of things she is doing, taking FEMA Public Assistance 
money and taking Community Development Block Grant money and 
putting it together in a way that is a really smart investment 
for our communities.
    You can't have people back without infrastructure, and the 
FEMA Public Assistance Program, and I think the things we have 
done with that program and working so closely with the FEMA 
Administrator and the challenges that we had with the 
Transitional Recovery Office here, and Secretary Napolitano, 
another good partner, brought in Tony Russell to work with us 
and we sat down in meeting after meeting after meeting with our 
State partners, Governor's office, Homeland Security, and 
worked through issue after issue.
    We started off--in fact, I will never forget the meeting in 
2008 when Governor Jindal came in. I had my first meeting with 
FEMA and they told me we would never have more than $5 billion 
obligated, and today we are at $9 billion, and we have about 
2,600 more large projects to kind of work through, but nobody 
is complaining because we have a great process, a great 
partner, and we are going to get there, working together, and 
not arguing or yelling or just providing data back and forth, 
and a great example of that is the lump-sum settlement for $1.8 
billion. You passed that legislation. It is fantastic. We 
worked very closely with our FEMA partners and the Office of 
Management and Budget and other members of the Obama 
Administration to make that happen and it was a great success.
    And I will finish with this, health care. We know we need 
health care. Well, we are in the process of purchasing property 
at a very rapid rate for the VA hospital and the charity 
hospital. We are going to do a groundbreaking in November. That 
is what we are pushing towards. We are going to work with the 
Mayor of New Orleans, Mayor Landrieu, on the fabric of that 
hospital and how it fits into the community, because I would 
never dare to cross him.
    Senator Landrieu. It is a good thing, because he is sitting 
right behind you. [Laughter.]
    Mr. Rainwater. I could feel his presence. [Laughter.]
    And as Secretary Donovan said, we are in the process of--
and again, he has been such an outstanding partner--the $30 
million to help assist in clinics, still working with Centers 
for Medicare and Medicaid Services (CMS) to work out a few 
pieces of that. HUD has approved the usage, which I have never 
met an administrator that worked so outside the box, and I 
appreciate you very much, and with that, I will end. Thank you, 
Senator.
    Senator Landrieu. Thank you very much. Doris. And we are 
going to pick up some time by limiting our questions, so the 
second panel, just hold tight. We are going to try to get you 
all on in about 15 minutes.

  TESTIMONY OF DORIS VOITIER,\1\ SUPERINTENDENT, ST. BERNARD 
                         PARISH SCHOOLS

    Ms. Voitier. Well, good morning, and I am honored to have 
the opportunity to speak with you this morning and to spend 
some time highlighting our struggles as well as our progress.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Voitier appears in the appendix 
on page 82.
---------------------------------------------------------------------------
    What happened on August 29, 2005, changed the face of our 
school district and the community we serve forever. In 
hindsight, there are some things from which we will never 
recover, yet there are also things that have admittedly moved 
us forward, and I am going to briefly paint a picture of our 
school system and community to you prior to the storm.
    We were a public school system that worked. Our kids scored 
above the State and national averages on standardized testing, 
the first district in the State of Louisiana to be fully 
accredited by Southern Association of Colleges and Schools 
(SACS), universal four-year-old program, and we have won awards 
for fiscal responsibility and financial reporting before 
Hurricane Katrina hit. We were totally wiped out, as everyone 
knows, completely underwater, no land access to us whatsoever. 
The only way you could get in was by boat or landing a 
helicopter on the levee.
    But we were desperate right after Hurricane Katrina to 
restore educational services for this community. Our 
firefighters, our sheriff's deputies, our essential personnel 
had never left, and the refineries which are so vital to this 
region and the country wanted to bring their workers back, and 
with them came families and children. And I don't know how to 
impress upon everyone the importance of getting a school 
started, because when people want to come back to repopulate, 
the first thing they want to do is, what can I do with my 
children? Where can I put them in a safe environment? And 
schools are critical and crucial, right up there with all of 
the essential services that we must restore initially.
    So then there was also the uncertainty of funding. The 
mantra was, let the money follow the child, so we looked at 
Federal obligations with displaced student monies and even our 
normal Federal allocations. At first we were getting, send the 
money to where the kids are going and let it follow the child. 
Our State was in a situation where they felt that--I think 
about 30, 35 percent of the general operating fund for the 
State was generated by revenues in this region, so a Special 
Session was being called and part of that was, well, let us 
send the money where the kids are going and where the people 
are going. And then, of course, locally, we had nothing, no 
sales taxes coming in, no property taxes, because we were 
totally destroyed.
    So there was no course in college that I took in how to 
rebuild a school system from scratch 101 with no local, 
Federal, or State resources. So what did I think? I thought, 
well, my first response was, I live in the most powerful 
country in the world. Surely our Federal Government is going to 
come in and provide some assistance to get me up and running 
initially, and boy, was that a mistake. And I am just going to 
briefly paint this classic picture of what not to do.
    I think our FEMA kick-off meeting was the worst experience 
I have ever had in my entire life. We had 25 to 27 FEMA 
representatives from historic preservation, environmental 
review, 504 mitigation, 506 mitigation, interim housing. They 
all introduced themselves, set a stack of manuals down, and 
told us what not to do and what we couldn't do. And my basic 
question to them--I said, well, all I need is some portable 
classrooms and some temporary housing, some of those little 8-
by-29 trailers. Help me get those quickly so that I can provide 
educational services for the first child that enters St. 
Bernard Parish.
    So we started working. We were going to mission assign it 
to the Corps. We thought that was a great idea. I felt that 
there must have been contracts in place, resources that come in 
immediately and bring those to us, and I quickly found out and 
was gold that would not happen until March or April 2006.
    So we did what we should have done, or what I should have 
done from day one. We took matters into our own hands. We 
located classroom trailers in Georgia and North Carolina. We 
had them shipped down in 3\1/2\ weeks. We opened a school with 
334 children. So 11 weeks after the storm----
    Senator Landrieu. Can we give her a round of applause for 
that, please? [Applause.]
    Ms. Voitier. And in the interest of time, I am not going to 
go through some of these examples, but this was classic in what 
not to happen. What should have happened was someone on the 
ground should have been empowered to make those decisions hand 
in hand with local government as to what you needed. Secure the 
area, bring in the vital resources for education and for health 
care and get us started, and forget the manuals, forget the 
regulations. Bring it in and get us ready to go. Then step back 
and start imposing those.
    So the first lesson that I hope everyone has learned is how 
to coordinate from day one in the case of a catastrophic 
disaster a Federal response that would encompass Federal, 
State, and local authorities.
    Many people have asked us, how do we make it happen? What 
progress did we have? We have renovated and rebuilt 13 major 
school sites. We had the first two permanent buildings built in 
the metro area since the storm. All of our schools are state of 
the art. When we did the tour this morning, many of you saw the 
ninth grade academy and the new Cultural Arts Building, and we 
have plans to consolidate in what we call the Museum of Modern 
Art (MOMA) center, a planetarium, science interactive exhibits 
for kids, Hurricane Katrina history museum for the school 
system.
    And how do we accomplish it? Our school board immediately 
in March 2006, we got a plan together. We haven't deviated from 
that. We have secured financing not only with FEMA funds, but 
with the Community Development Block Grant funds, insurance 
money, and for the first time, as a public educator, we never 
went out and did fundraising, but we have been able to raise 
money from the Exxon-Mobil Foundation, the Merrill Foundation, 
the Kellogg Foundation, Lions Club International, Energy, and 
the list goes on, in trying to form that true public-private 
partnership and be a little creative in the financing of these 
structures, which will serve an entire community as well as 
schools.
    There are just two things that I would quickly ask, because 
I know time is of the essence. I am not going to go through the 
whole thing. Two challenges that we have, as Congressman 
Scalise mentioned, is the Community Disaster Loan. We were 
eligible to borrow $34 million. We only borrowed $4.5 million 
because of these other sources coming in. We were financially 
responsible. We didn't just go out and say, give me, give me, 
give me. We borrowed only what we needed.
    And because of the timing of this mess, they are telling us 
we are going to have to pay this back. We are beginning--we 
will begin, with the economy the way it is, to experience some 
deficits that other school systems across the country have 
already experienced, and some of that Category A and B FEMA 
money is considered in these calculations and whether or not 
you have to pay it back as operational expenses. Some of the 
money we moved to capital projects to do FEMA-ineligible 
projects, we are told, well, those are really operational funds 
that you had control over. So we are going to throw those in 
the calculation. Somebody has to look at that formula.
    Many people have told me, you should have borrowed the 
whole $34 million, increased salaries, hired more people, and 
do national recruitment of teachers to come into this 
community, and then you would show a deficit. But no, because 
we were fiscally responsible and we behaved in a prudent 
manner, we feel we are being penalized.
    And last, Senator, with the restart funds, the first year 
after Hurricane Katrina did this, Representative Melancon was 
kind enough, you all had your whole delegation down. We met and 
we talked about those restart funds, because initially we 
weren't able to spend one penny because of the clauses in there 
for nonsupplanting, not only nonsupplanting of Federal funds, 
but more importantly, nonsupplanting of local and State monies. 
And because of that, we couldn't spend a penny. I testified in 
Congress, in the House Committee on Education, just to that 
point. And you all were successful in getting the authority to 
grant waivers in that legislation. So if restart monies are 
coming to other communities in other disasters, really, that 
provision needs to be put in initially so that we don't have to 
fight every year to get that done.
    So finally, I want to leave you with these thoughts. If you 
have doubts about funding a safer, more protected New Orleans 
area, if you have doubts about whether or not the stream of 
money that has come to the Gulf Coast is warranted, if you have 
any doubts about whether or not money has been used wisely or 
with integrity, I want you to tour this school building with me 
if you have a chance after the hearing. I will introduce you to 
820 students who can resolve all doubt. Because with or without 
Federal assistance, they are back in school in St. Bernard 
Parish. They are striving. They are home. They once again have 
found normal and they are well on their way to becoming 
tomorrow's leaders. And there are 5,000 more like them in our 
other nine schools and hundreds of thousands along the Gulf 
region.
    So it is said, if you want to touch the past, touch a rock. 
If you want to touch today, touch a flower. And if you want to 
touch the future, touch a child. So, ladies and gentlemen, your 
work has touched our future and we are grateful for your 
compassion and leadership. [Applause.]
    Senator Landrieu. Thank you. Mark. Mr. Schexnayder.

   TESTIMONY OF MARK SCHEXNAYDER,\1\ AGENT, LOUISIANA STATE 
                 UNIVERSITY AGRICULTURE CENTER

    Mr. Schexnayder. Can you give me a little better panel to 
follow? [Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schexnayder appears in the 
appendix on page 92.
---------------------------------------------------------------------------
    Thank you, Senator Landrieu. I really feel like I am 
preaching to the choir. I might give you all a few minutes of 
my time back because I am really tired of talking about the 
coast, and I know you guys are, too.
    I want to apologize to your staff for--I had a job change. 
I am going from the LSU Ag Center program to the Wildlife and 
Fisheries to work on a seafood certification program. I did 
provide some testimony----
    Senator Landrieu. Try to speak into the microphone. It is a 
little bit jumbled. There you go.
    Mr. Schexnayder. I just want to give you a few bullets 
about the fisheries and coastal restoration. As you guys know 
from the challenges of the BP disaster, the Gulf Coast, the 
seafood industry is vitally important, not only to the State's 
economy, but to the local communities. The Gulf States account 
for 32 to 41 percent of the average commercial fishing 
production in the Lower 48 States. Louisiana provides 75 
percent of that landings, and over 95 percent of all these 
fisheries are estuarine dependent. We lost 217 square miles of 
coastal land to open water just during Hurricanes Katrina and 
Rita and over 1,900 square miles in the last century to 
hydrologic modification, nutrients, sediments, starvation, and 
subsidence.
    The fisheries community, as you guys know, was devastated 
by the storms, both by Hurricanes Rita and Katrina, everything 
on the river, east of the river, the Gulf Coast sustained $580 
million worth of storm damage. We had a lot of different 
programs that came in and they were very slow in coming, as you 
guys know, as everybody knows, I mean, every aspect of 
recovery. During that, we lost 2,000 commercial boats, 17,000 
recreational boats, which we didn't lose them. They became 
debris in the waterways which prevented the recovery of the 
communities.
    And I provided all these notes to you guys----
    Senator Landrieu. That is OK. You can just summarize it. We 
have all the written testimony.
    Mr. Schexnayder. One of the projects that worked really 
well was the LRA stepped in with some of the block grant money 
and devised a project with Wildlife and Fisheries, the Seafood 
Promotion Board, and other groups to form a Fisheries 
Infrastructure Recovery Program for $20 million, and then an 
additional $9 million. They had a competitive process where we 
picked coastally resilient projects to develop publicly owned 
vessel staging areas. These are fairly important when you get a 
storm, because this last storm, we had no place to stage the 
boats. Getting them on barges greatly increased the cost and 
time to recover. We have a great project through that program 
with--that was the first, and then now in Venice, and now we 
are going from there with that program.
    We also developed a gear efficiency program to make the 
fishermen more efficient in their fishing efforts. Now we are 
doing through that program, to do a seafood certification, 
transparency. It all goes back to making the fishermen and the 
fishing communities more resilient.
    On the coastal land loss, I think Paul is right. We are at 
kind of a silo syndrome. I think we have lost our sense of 
urgency for coastal restoration. I think we need to look with 
the Corps of Engineers with the coastal protection projects, 
with their design-build lessons, building a billion-dollar gate 
in less than 2 years and another pump, another billion-dollar 
project. We need to bring that urgency and that actual process 
to the coastal restoration. We plan projects to death. They 
never get off the ground.
    We have, I think, the best U.S. Army Corps of Engineers 
(USACE) team we have ever had. The State has taken their 
resources and reorganized to be able to act quickly. We have a 
local flood protection authority. So I will work with--Tim is 
in the audience. They are focused on coastal restoration. We 
have everything, all the tools we need. So we just need to look 
at what we did with the coastal protection and put that to 
coastal restoration gain.
    And on the sense of urgency, one thing we could do is get 
the National Guard involved in some of these projects. The 
Bonnet Carre West Project, where we take water out of the lake 
and put it in, we could get that going tomorrow if we could 
just bring that design-build urgency back to the process. Thank 
you.
    Senator Landrieu. Thank you, Mark, very much. Ms. Anderson.

   TESTIMONY OF LAUREN ANDERSON,\1\ CHIEF EXECUTIVE OFFICER, 
          NEIGHBORHOOD HOUSING SERVICES OF NEW ORLEANS

    Ms. Anderson. Good morning. Thank you, Madam Chairman, 
Members of Congress, for providing and using the occasion of 
the fifth anniversary of Hurricane Katrina as an opportunity to 
reflect on the lessons that can be learned in this tragedy.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Anderson appears in the appendix 
on page 95.
---------------------------------------------------------------------------
    One of the thoughts that sustained me in the aftermath of 
Hurricane Katrina was a Chinese saying that within every crisis 
lies an opportunity, and Hurricane Katrina certainly has 
presented us with many opportunities to learn as individuals 
and grow as a body politic.
    Neighborhood Housing Services (NHS) was founded 30 years 
ago to help stabilize faltering neighborhoods, and throughout 
our history, we have been committed to making New Orleans a 
better place to live for all of its residents. We have done so 
by improving our historic housing stock, by giving families the 
tools to improve their financial capacity, and by working in 
close partnership with residents, government, and businesses to 
improve the quality of life in our neighborhoods. We are a 
member of the NeighborWorks Network, which was founded and is 
supported by Congress.
    My immediate reaction after the levees broke was that all 
the work that we had accomplished in the past decade or more 
had literally been washed away. We had helped thousands of 
working class families achieve the dream of home ownership and 
their homes washed away. We had made tremendous strides in 
turning around the Freret neighborhood from one of 
disinvestment to being a neighborhood of choice, and it was 
underwater.
    For a time, I really felt that our work had been for 
naught, and then I began learning some critical Hurricane 
Katrina lessons. As it related to home ownership, we began to 
learn that as difficult as it was for homeowners to return home 
and to build, by and large, they were better off than renters 
because they had a little bit more control over their destiny. 
The numbers speak to this. The percentage of home owners in New 
Orleans has increased since Hurricane Katrina from 46 percent 
to 53 percent, not because the rate of the home ownership has 
increased, but because homeowners have been able to return home 
at a faster rate than renters.
    Therefore, continuing to work with working class families 
to achieve the American dream of home ownership in a 
responsible manner by improving their credit, reducing debt, 
and giving them financial literacy is still an important role 
for nonprofits working in partnership with government and local 
lenders.
    There are two greater lessons that we have learned from 
Hurricane Katrina. First is that community matters, and also 
the importance of helping residents to be organized within 
their neighborhoods and to be empowered to actively engage in 
civic matters. Hurricane Katrina was an equal opportunity 
disaster. Neighborhoods rich and poor, black and white, flooded 
when the levees broke. The ability of neighborhoods to recover 
has underscored the influence of class, race, and access to 
capital.
    But I hypothesized that there was one other influence on 
the resiliency of neighborhoods and that was the degree to 
which they were organized prior to Hurricane Katrina. The 
degree to which neighborhoods had preexisting strong 
neighborhood associations that were able to quickly mobilize 
had a distinct advantage over those neighborhoods that did not. 
Community organizing, strengthening the community-based 
organizations and neighborhood associations matters to the 
vitality of our neighborhoods.
    We did not just lose buildings when our levees broke. We 
lost communities. The fabric of life was torn apart. What we 
have experienced in the intervening 5 years is that as 
determined as residents were to rebuild their homes, they were 
equally determined to rebuild their communities. We all 
witnessed in the early years after Hurricane Katrina the 
sacrifice of time and energy residents were willing to make to 
be a part of the planning processes throughout our community. I 
won't recount the number of overlapping planning efforts and 
meetings that occurred, but even while people were having to 
rebuild their houses, they were willing to devote hours and 
hours to being a part of meetings and planning for the future 
of their neighborhoods.
    We live in a country where people want to be involved. They 
want to be a part of the solution and not just bystanders to 
destinies. Our challenge as leaders is to how to empower people 
to be active participants in our democracy, to have the tools 
to do more than vote, to do more than protest, but to be able 
to be a full partner with government to make their community a 
better place.
    So my comments now focus on some of these--how we have 
implemented some of these lessons learned post-Hurricane 
Katrina, and I will use our work in the Freret neighborhood 
uptown to demonstrate that.
    The work that the (NHS) did in the Freret neighborhood 
provides examples of the way that nonprofits, residents, 
businesses, and government have been able to work together and 
forge an active partnership to create a better neighborhood. 
NHS's response in the Freret community, and we have replicated 
this also in the Seventh Ward, was to provide an opportunity 
for residents to come together to reconnect and provide the 
opportunity to listen to determine what people wanted for their 
neighborhood.
    We began this with facilitated conversation in early 2006 
to discern their vision for their neighborhood. More than 80 
residents turned out that evening, which was twice the number 
of residents who would typically attend a neighborhood 
association meeting, and even more significant because the 
population was down by more than 50 percent. What we learned 
was that the residents of the neighborhood had a commitment and 
a vision to recreate that neighborhood the way it was before, 
to be a very diverse, vibrant neighborhood.
    Because so many places and institutions where people 
gathered had been lost due to the storm, our next step, with 
significant support from NeighborWorks, was to open a 
neighborhood center in the Freret neighborhood that became a 
gathering place for residents, children through senior 
citizens. The Freret Neighborhood Center sought a clear mandate 
from the residents as to how to focus our efforts in the 
rebuilding of our neighborhood, and therefore, we conducted a 
door-to-door survey in the neighborhood.
    When we asked, what was the primary concern for the 
neighborhood, the Freret residents' most common response was 
vacant and run-down buildings. Thus, our vacant property 
campaign began. In June 2008, NHS with the help of students and 
residents surveyed every property in the neighborhood, more 
than 1,300, to locate vacant and neglected properties. We 
determined whether the building was vacant or occupied, its 
condition, and whether or not it was under construction. We 
then plotted all these properties on a Geographic Information 
Systems (GIS) map to provide baseline data and the tool for our 
future work.
    Residents then began to develop the means to reach out to 
the owners of these distressed properties. They wrote hundreds 
of letters to property owners using their own knowledge of how 
to find these people rather than city records to be able to 
contact them and reach them. These letters included a 
photograph of the property and an inquiry, not a threat, as to 
the owner's intent and what the obstacles the owners were 
facing to rebuilding their homes. Neighbors connected with 
neighborhood to resources and then became effective caseworkers 
for those homeowners. We have created databases and computer 
tools that have given neighbors the ability to be the solution 
to the problem in our Freret neighborhood rather than looking 
to government to solve the problem.
    So I am going to end by posing some questions for us, 
because I do believe that the lessons we have learned in our 
work post-Hurricane Katrina throughout New Orleans, not just in 
the Freret neighborhood, is that we need to be able to provide 
the means and the tools to help residents become engaged and 
become active members of our democracy, not just voting on 
election day, although that is important, but what we as a 
nonprofit have been able to do is to provide technical skills 
and staff support that then mobilize and energize and empower 
residents to be community leaders.
    And the question is, how do we replicate that? How do we 
expand this work locally, and then how do we use these lessons 
throughout the country?
    I thank you for this opportunity to help inform this 
conversation going forward.
    Senator Landrieu. Thank you so much. Let us give our whole 
panel a round of applause. [Applause.]
    We normally don't do this at Congressional hearings, as my 
colleagues will note, but I think this panel most certainly 
deserves applause.
    I am going to make an executive decision that we are going 
to pass the question period, because we have elected officials 
that are here that have very busy schedules that are on the 
second panel and I want to accommodate those. But I will say 
that the record of this hearing will remain open for 2 weeks, 
and if any of the Members have questions, you can put those 
questions in writing and, of course, you will receive answers. 
And I actually have a whole list of questions in my mind and I 
am sure the Members do, as well. But in honor of time 
constraints, and we are committed to wrap this up at 12:30, we 
are going to move on to the second panel.
    We have heard the enormous work of housing, both home 
ownership and renters, and the challenges ahead.
    Mr. Rainwater talked about the new procedures in place and 
strategic partnerships at the Federal, State, and local level.
    Obviously, Doris Voitier gave us a great insight into the 
struggles of school systems, some that were mediocre and some 
that were excellent in this region and how they have all tried 
to recover in their own way and how we are going to try to make 
all of them as excellent as possible.
    Mark, thank you for your comments about fisheries. We 
sometimes forget the very important industry.
    And finally, Ms. Anderson, thank you for your comments 
about neighborhoods and nonprofits. When the Federal Government 
right after Hurricane Katrina said, well, this isn't what 
government can do, maybe your volunteers and nonprofits could 
do it, as we know, they lost their houses, too, and I don't 
know where we go to raise the money for all of our nonprofits 
since most everybody lost a job. We need support for nonprofits 
because nonprofits can leverage a tremendous amount of effort 
and you are an example of that.
    Thank you so much, and let us give them a round of 
applause. [Applause.]
    Mr. Melancon. As we change, I just need to ask Doris 
Voitier, I meant to ask you this a long time ago. Did you save 
those shoes that you kicked butt with? [Laughter.]
    I would like to see about putting them in the Smithsonian.
    Ms. Voitier. Well, we have a great relationship with FEMA 
now. And I did want to publicly thank Tony Russell and John----
    Senator Landrieu. We will take a few minutes to change. 
[Pause.]
    If the second panel would take their seats so that we can 
proceed, and thank you so much for your patience.
    I thank you all very much. The first panel was, as you 
could tell, focused on livelihoods and housing and human 
connections that are necessary to recover. This panel is about 
infrastructure generally and the importance of the physical 
infrastructure, whether it is buildings or roads or levees, and 
what it takes to make a community strong and resilient and to 
be a basis for economic development.
    And so we are very pleased to have with us the FEMA 
Administrator Craig Fugate, who will testify first. He has 
served as FEMA Administrator since 2009. This is his fifth time 
testifying before this Subcommittee. We are honored to have him 
again. He has been a partner in our work to help create a 
better, smarter, more agile FEMA and we really appreciate the 
experience that he brings to us previously as Director of the 
Florida Division of Emergency Management. So he is most 
certainly trained as a firefighter, as a paramedic, and then 
spent many years in Florida fighting hurricanes there, and he 
brings all of that experience to Washington, D.C., great 
leadership to his agency.
    General Robert Van Antwerp was appointed to serve as the 
Chief of Engineers and Commanding General of the Corps of 
Engineers. General, we are honored to have you today. He holds 
a Master's degree in mechanical engineering from the University 
of Michigan. He is himself a professional engineer. He has been 
on point for many years now on this recovery and I am glad that 
many of the students, General, were able to meet you today. 
They are very grateful for the levees that surround this 
building.
    Mayor Mitch Landrieu was elected Mayor of New Orleans in a 
historic landslide in February of this year. Prior to becoming 
Mayor, he served two terms as our Lieutenant Governor, where he 
led efforts after Hurricanes Katrina and Rita to rebuild the 
tourism industry, bring jobs back to the region, and promote 
our cultural economy. Mr. Mayor, we are grateful to have you 
today.
    Kevin Davis is President of St. Tammany Parish. He was 
elected in 2000. He has served three terms. Under his 
leadership, the Parish of St. Tammany has moved steadily 
towards recovery from the 2005 and 2008 hurricanes. This is his 
second time to testify before this Subcommittee. We are honored 
to have him with us today and we thank you, Kevin, for your 
really extraordinary leadership in St. Tammany Parish, 
particularly in the Slidell area, which was so hard hit by 
Hurricane Katrina.
    And then, finally, Sheriff Jiff Hingle assumed office in 
Plaquemines Parish in 1992. He is serving his fifth term. 
Sheriff Hingle worked tireless to reorganize and modernize and 
reinvigorate law enforcement in Plaquemines Parish, one of the 
hardest hit parishes. After Hurricane Katrina, the Sheriff 
coordinated the evacuation and rescue missions of the parish, 
led efforts for recovery of the Sheriff's facilities, and, I 
might add, has been a leader of law enforcement for the whole 
region, as other sheriffs have depended on him and looked to 
him for leadership and guidance. So, Sheriff Hingle, we are 
grateful for you to be here today.
    Let us start with you, Mr. Fugate, if you don't mind, and 
if we could limit our remarks to 5 minutes each, we would 
appreciate it, and then we will have a round of questions.

 TESTIMONY OF HON. W. CRAIG FUGATE,\1\ ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Fugate. Well, good morning, Chairman Landrieu and 
Congressmen. This 5-year anniversary, I am not going to go into 
much depth. You did great talking points about how bad it was. 
Why do I need to repeat what we were seeing up on the screen 
and we know has happened?
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fugate appears in the appendix on 
page 106.
---------------------------------------------------------------------------
    Again, as you pointed out, as the Obama Administration came 
in, one of the first acts for Secretary Napolitano and 
Secretary Donovan was to come here to the Gulf Coast region, 
look at what was occurring, probably more importantly what had 
not been occurring, and take those steps to start enhancing the 
recovery. Secretary Napolitano made some key decisions. First 
of all was to bring in some new leadership, new eyes and a 
fresh approach to problem solving to the FEMA team. Also, 
working with the State and GOHSEP to begin an expedited process 
of clearing a backlog of projects that we are still unable to 
get to resolution. In addition to that, your Subcommittee, with 
the support of Congress, passed key provisions that gave us new 
tools, such as arbitration which would be binding, the ability 
to combine large projects, additional assistance and other 
programs to move through this backlog.
    As has already been mentioned, one of those people that 
Secretary Napolitano had appointed was Tony Russell, an 
experienced Federal Coordinating Officer (FCO) who came in to 
begin that process. It was also on that day that Tony was 
brought in that I was announced that I would be nominated to be 
the next Administrator of FEMA, and I was here and met with 
many folks to hear what again the challenges were.
    As I came on board and Tony and I met and we came back to 
Louisiana and we sat down with our counterparts at GOHSEP, I 
think one of the most important things that Tony brought back 
to the table was sitting down and talking. We had become too 
oriented on process. We were spending too much time going back 
and forth over procedures. And we brought back a discussion 
that we would not always be able to agree on everything, but we 
needed to start focusing on outcomes.
    I think today on the bus tour, we actually saw some of 
those outcomes. We saw buildings that were destroyed, critical 
public infrastructure such as fire stations and schools and 
others that are either under construction or have been 
completed. And we saw on the port the new Administration 
building, completed and reopened, the fire stations that are 
being built, not only to provide public safety protection, but 
also a wise investment of taxpayers' dollars, to be built to 
provide safety for the firefighters when there is a disaster, 
but also to make those buildings more resilient so they are 
there afterwards.
    This process has enabled us to, in the last year and a 
half, on behalf of the President and Secretary Napolitano, to 
have released over $2.5 billion in projects, but we are not 
done and we have not finished building everything that needs to 
be rebuilt, and we still have work to be done, as you announced 
yesterday, still significant work to be done in the school 
districts and other public infrastructure.
    Our commitment on behalf of the President and Secretary 
Napolitano is to continue to meet and sit down and use our 
tools more effectively. As you have pointed out and have asked 
me numerous times, it has been, ``Craig, do we need to change 
the Stafford Act? '' And I have asked that, let us look at our 
process and procedures first, because in many cases, Tony was 
able to get to the same solutions that we thought we couldn't 
do without changing the Stafford Act merely by not focusing in 
on a process but going back to what the law's intention was, 
what the Code of Federal Regulations (CFR) told us we could do, 
and not limiting ourselves by perceived limitations that may 
have been something that had been stated previously but were 
not actually based in the law or rules that were adopted to 
implement that. But these challenges continue and the 
rebuilding is not over and the work must be done.
    I also know that when I testified, that a lot of times 
questions would come up before I testified. I would rather just 
go ahead and let us get to some of the issues that have been 
raised. The Community Disaster Loan Program and the forgiveness 
of those loans and the process we are going through in the 
first round is resulting, I think, in questions about the 
intention of forgiving these based upon the impacts to the 
economies and to the tax base of the communities receiving 
these loans. Yesterday as we were talking with the 
Superintendent here in the St. Bernard Parish School District 
of some of the ways that the auditors were looking at what was 
being treated as income.
    I think what I owe back to you, because we were given 
specific legislation to address this issue, is to look at what 
we are finding in our initial reviews. Again, this is, I don't 
think, a process that we are--we do the first round of 
forgiveness and then we are done. I think we go through the 
first round of forgiveness and find what we did. Then we look 
at the ones that we did not reach that same conclusion and we 
go, why not, and we go back to the law and go, what was the 
intention and half way through that process not been able to 
address that? We may very well find that there will be those 
loans that won't be forgiven because the income of that 
particular taxing authority is sufficient to provide for 
repayment. But if we cannot and we still think there may be 
issues, we owe you back a report of what the legislation 
directed us, how we implemented that, and what the gaps were to 
get there.
    But we did hear yesterday enough for me and Tony Russell to 
come back. I want to sit down and go, in the audit process, how 
are we looking at income? Are we treating reimbursements from 
FEMA as income versus that should not be used in that? Are we 
using accounting principles which would make sense if we were 
doing an annual Single Audit Act-type audit? Are we looking at 
this under the provision of what is the revenue stream impacts? 
Within that, we have had some flexibility where we have allowed 
the applicants to pick the 36-month period. So we didn't start 
immediately after the hurricane, where some had rapid increases 
in population which skewed their tax numbers, or maybe the 
revenue streams and doesn't reflect the overall revenue stream 
as you go forward.
    So again, we are working those. We know that is a concern. 
And we are working to go through this first cut to determine 
what we can do, what we cannot do, and come back and report if 
we need additional guidance or legislation. Thank you.
    Senator Landrieu. Thank you so much, Administrator, and 
again, this is a perfect example. He knows he is going to get 
this question from this panel, so he has already answered it. I 
know Congressmen Scalise and Melancon are about ready to jump 
out of their chairs on this question, so thank you for being so 
forward in that way and we will have follow-up questions. 
General.

  TESTIMONY OF LIEUTENANT GENERAL ROBERT VAN ANTWERP, JR.,\1\ 
        CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

    General Van Antwerp. Chairman Landrieu, Members of the 
Subcommittee thank you very much, for the opportunity to be 
able to testify before you today. I am going to show a few 
slides. They have been running; they show some of the pictures 
that we have of these great projects behind you as we go along.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Antwerp appears in the appendix 
on page 116.
---------------------------------------------------------------------------
    The Corps has made significant progress on the Hurricane 
and Storm Damage Risk Reduction System (HSDRRS) in the last 5 
years. Over 270 contracts have been awarded and over $9 billion 
obligated. I would like to note that 60 percent of these awards 
have gone to Louisiana-based firms, and over $2.25 billion to 
small and disadvantaged businesses, about 30 percent of the 
total. The total Federal funds appropriated is $14.45 billion. 
1.5 billion of that is included for the non-federal cost share 
with repayment over 30-years. The State's cost is estimated at 
$1.7 billion.
    After Hurricane Katrina, the firm Administration commitment 
and quick Congressional action enabled the Corps to repair and 
restore 220 miles of the system. These photos show the Inner 
Harbor Navigation Canal (IHNC) breach site and the rebuilt 
flood wall that was completed in 2006. The system in place 
performed as designed during Hurricanes Gustav and Ike in 2008, 
where we had a 12-foot storm surge, as depicted in this photo. 
So it worked.
    The Corps is totally committed to providing a system that 
will defend against the effects of a 100-year storm in June 
2011, and work will continue beyond 2011 for some of the 
systems' features like the permanent pumps, but won't affect 
our ability to withstand that 100-year storm.
    The four major project partnership agreements necessary to 
proceed with construction were signed with the Coastal 
Protection and Restoration Authority (CPRA), and we also signed 
agreements with the State, all the agreements we need to extend 
its payments for its cost share portion over a 30-year period.
    In accordance with the Water Resources Development Act 
(WRDA) of 2007, the Corps has implemented a robust independent 
external peer review system to include overall design criteria 
and other important facets. We are seeking the best solutions 
humanly possible.
    Interim closure structures and pump stations at the three 
outfall canals provide a 100-year level of risk reduction, as 
depicted in this photo. You have the pre-Hurricane Katrina on 
the left and the current photo of the 17th Street Canal on your 
right. But they are not permanent facilities. They were 
designed and built in 2006 with an estimated project life of 5 
to 7 years.
    We will include adaptable design measures in the permanent 
solutions that are within our current authority. This is a 
picture of the concept for the future permanent pump stations. 
It does have a lower sill, so that if there is another 
alternative later on for the canals, it will be adaptable.
    The state-of-the-art Inner Harbor Navigation Canal (IHNC) 
Surge Barrier Project on Lake Borgne includes a concrete pile-
supported wall across the Gulf Intercoastal Waterway (GIWW) and 
Mississippi River Gulf Outlet and three gated structures. The 
group of these photos shows the sequence of events since 2007 
on this project. It is the largest design-build civil works 
contract the Corps has ever had, so we are very proud of it. It 
will reduce the risk to the Ninth Ward, Gentilly, New Orleans 
East, Orleans Metro, and St. Bernard Parishes.
    The project has navigation safety features and a more 
robust barrier wall and added nourishment of 705 acres of 
marshland. The project is now 75 percent complete. The wall and 
surge barrier are already complete, and this photo shows a 
comparison of the new flood wall to the tie in, so you just see 
the stark contrast of that new one to the old one.
    The Gulf Intercoastal Waterway West Closure Complex will 
reduce risk for the West Bank portions of Jefferson, Orleans, 
and Plaquemines Parish by removing over 25 miles of levees, 
flood walls, gates, and pump stations. The progress of this 
complex is seen in this set of photographs.
    Following Hurricane Katrina, about 80 percent of the St. 
Bernard Parish levees were either repaired or constructed to 
achieve the pre-Hurricane Katrina authorized elevation. With 
the rigorous public involvement process, the Corps determined 
that T-walls on top of the existing levees provided the best 
solutions to provide a 100-year risk reduction. Construction of 
23 miles of floodwalls, proceeding at the rate of about two 
miles per month, is scheduled to be completed in 2011, and that 
is what these photos show, the St. Bernard floodwall.
    Closure of the Mississippi Gulf Outlet (MRGO) was completed 
in July 2009 using about 350,000 tons of rock. A study to 
identify the best ways to restore the wetlands is currently 
underway.
    And finally, I would like to just mention the Louisiana 
Coastal Protection and Restoration (LACPR) Final Technical 
Report. It was submitted to Congress. This is the long-term 
plan that we are working, embedded with the State of Louisiana, 
to come up with a master plan that will develop a long-range 
solution for defense of the coast.
    So, Madam Chairman, that concludes my comments and I 
appreciate the opportunity to be here with you today. Thank 
you.
    Senator Landrieu. Thank you, General, very much, and we 
will have questions following the presentations. Mayor 
Landrieu.

TESTIMONY OF MITCHELL J. LANDRIEU,\1\MAYOR, CITY OF NEW ORLEANS

    Mr. Landrieu. Thank you, Madam Chairperson and Members of 
the Subcommittee. I want to just, if I could, thank the panel 
that was before, all of the individuals that were on that panel 
and all the individuals on this panel have been great partners 
of mine and the City of New Orleans throughout.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Landrieu appears in the appendix 
on page 125.
---------------------------------------------------------------------------
    I would start off generally by saying this, that 
notwithstanding all of the Federal money that has been sent to 
the Gulf Coast, it still does not approximate the level of 
damage that actually occurred. And notwithstanding how much 
better the system is working, there still is a gap between 
damage and resources necessary to get it back like it was 
before or better, although we have made some tremendous 
strides. And within that context, all of us continue to operate 
to try to understand what happened 5 years ago and how to make 
it better.
    For example, as we sit here today, it is worth noting, 
although we are celebrating the fifth anniversary of Hurricane 
Katrina, that this area has suffered from a number of 
disasters--Hurricanes Katrina, Rita, Ike, Gustav, the national 
recession, and the BP oil spill. And that is worth noting, 
because as we think about how to structure our responses, we 
have to find a way to become more flexible, break down the 
stovepipes that exist horizontally and vertically within 
government to move resources down to the ground more quickly. I 
think that is our overall challenge. Everything that we are 
talking about today fits into that phrase.
    It is true that we have had some great successes. I think 
the announcement of the 1.8 lump sum settlement for schools is 
just a tremendous success in so many ways. Number one, it is 
going to give us the resources necessary in New Orleans to 
build a first class 21st Century school system. But it is also, 
as Craig alluded to earlier, a new model, Senator Landrieu, 
based on your legislation that has allowed FEMA to assess a 
situation and to respond to it differently. And the reason that 
is so critically important to know and hope that Congressional 
authorization expands into FEMA's work is when you are trying 
to rebuild the city or you are trying to rebuild a parish, you 
can't plan long-term if you don't know what money is coming in.
    And, of course, as you try to rebuild the City of New 
Orleans and you are trying to rebuild neighborhoods, as 
Secretary Donovan spoke about with the amazing work that has 
gone on in the housing initiative, you try to build what we 
call place-based development, and it is important to be able to 
know what resources are going to be available because you just 
don't build the house. You have to build it next to a school, 
and the school needs to be next to the health clinic. So I was 
again thrilled by Secretary Donovan's announcement that he is 
going to allow CDBG money to be used to continue to fund the 87 
health care clinics.
    Suffice it to say that from the ground looking up, it is 
important to have stability and predictability so that we can 
actually master plan, so smart growth policies can actually be 
implemented as opposed to one-offs on whether or not a 
particular firehouse is going to be rebuilt.
    And so I would encourage Congress and the Senate to give 
broader authorization to FEMA to settle lump sum with parishes 
and mayors all over the country, because we have more storms 
coming, other catastrophes. That is a great tool that allows us 
greater flexibility and I believe that you will see the benefit 
of that. In the City of New Orleans, we are rebuilding 
everything. I think you have seen some successes there. But we 
have a long way to go.
    Let me just hit a couple of other points, because we are 
going to talk a lot about the great things that are happening, 
but there are some challenges that we have coming forward. For 
example, we still have to rebuild police, fire, and recreation. 
We are talking to Mr. Fugate now. We have a great relationship 
with them. The relationship with the State has been much 
better. Everything is working the way it is supposed to be 
working, but all of us have challenges. So we would like to do 
lump-sum settlements on police, fire, and recreation. We also 
have terrific challenges with the surge and Water Board.
    On top of that, I want to reiterate the urgency with which 
to deal with CDL, because that is going to be a burden that we 
are going to carry for a long time and that is a critical 
burden that we want to try to ameliorate over time.
    And finally, I think the Corps of Engineers has really done 
a superb job. The wall that was built is not only a testament 
to great engineering, but it is also going to give us great 
protection. Having said that, I believe the Corps understands, 
and, of course, all of us understand that 100-year flood 
protection is not adequate to protect what it is that we know 
is coming our way. The Corps, I know, was operating under 
authorization and financial limits, but I would strongly 
encourage all of us to continue to talk about finding a 
commitment to make sure that we protect the area.
    Senator Landrieu, you and many of you have been to the 
Netherlands. We understand the threat that we are under. The BP 
oil spill has again highlighted the incredible issue of 
restoring the coast, moving the levees up, making sure the 
building codes are where they are going to be if we are going 
to have a sustainable community over time, because if we 
rebuild the inner cities of the parishes but we don't have that 
outer layer of protection, we really are working for naught. So 
I think that is critically important.
    As we move forward, I do want to just reiterate how much 
better everybody is working together. I am very pleased with 
the tremendous support that we have received from President 
Obama. Many of his cabinet members have been down here multiple 
times and will continue to be here. Our working relationship 
with FEMA is really going very, very well. We have teams of 
people sitting in the same room all day now, from FEMA to the 
Office of Community Development (OCD), the Governor's folks, 
our folks on the city level as we speak are sitting in rooms 
working out these difficulties. But there are limitations that 
we have that could be loosened up that will allow us to do our 
work faster.
    So as we move into this anniversary, it is true that, by 
necessity, this area of the country has become the most 
important laboratory for innovation and change, just out of 
necessity. We are doing things here that nobody else in the 
country has been able to do because the fabric of our community 
got torn apart. So we have a special obligation to get it 
right. I know that you will and you will take these messages 
back to your colleagues. Thank you all so much.
    Senator Landrieu. Thank you, Mr. Mayor.
    President Davis of St. Tammany Parish.

   TESTIMONY OF KEVIN DAVIS,\1\ PRESIDENT, ST. TAMMANY PARISH

    Mr. Davis. Thank you, Senator Landrieu and Members of the 
Subcommittee and Congressional members. I will skip, because I 
know we are running out of time. I am here today to focus on 
lessons we learned and lessons we hope the Federal Government 
would learn.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Davis appears in the appendix on 
page 127.
---------------------------------------------------------------------------
    First, we learned that the Federal Emergency Management 
Agency does not manage emergencies. They manage the accounting 
that goes with emergencies. We learned that we must be self-
sufficient in the emergency response for at least 5 days. We 
learned that if you clean anything at all, even in the interest 
of public safety, you had better have FEMA's paperwork complete 
and signed off at every level if you hope for reimbursement. We 
learned that the well-meaning FEMA workers on the ground change 
quickly, and with that change of personnel the interpretations 
of the Stafford Act. I would like to give you a specific 
example.
    Hurricane Katrina stripped thousands of cubic yards of 
marshland from coastal marshes in the Federal Wildlife 
Management Area--this is a Federal Wildlife Management Area--
and just deposited them in waterways and canals and homes. 
Imagine, if you will, a home filled with five feet of mud and 
grass. We were successful in arguing that we could clean the 
marsh grass in the drainage ditches even though it was 
considered rooted vegetation because the grass grew roots 
because it took so long to get approval. However, FEMA had 
never approved the cleaning of the waterways. St. Tammany 
Parish has been forced to incur the cost to remove the debris. 
It is inconceivable that this work was not eligible under 
FEMA's rules. I submit that the only reason for this ruling was 
the inconsistent and cavalier application of FEMA's Public 
Assistance Program based on biased individuals.
    Be that as it may, the parish is about to complete cleaning 
these canals as I speak. In fact, the work is considered by 
many State and Federal agencies to be a model for debris 
removal and coastal restoration. We removed the debris in the 
canals by using a hydraulic dredge to pipe the debris back to 
the nearby Federal Big Branch National Wildlife Refuge from 
which it came. We are removing the hurricane debris, removing 
the navigational and drainage threats, and restoring Federal 
coastal marsh at the same time. Under FEMA's current policies, 
such a project is prohibited. This makes no sense to me, 
especially it is far less expensive than many of FEMA's own 
proposals which they later denied to clean the same area.
    And now I want to go just a little bit further and I want 
to mention the current disaster in which we are here in 
Louisiana and the Gulf Coast, battling the BP oil spill. 
Needless to say, this is a blow to continued recovery efforts. 
While FEMA's role in the response to BP oil spill certainly is 
limited to date, we cannot forget that this is hurricane 
season.
    In order to plan for response to a storm that this season, 
with the added threat of oil spill contamination, I initiated a 
dialogue with BP, the Environmental Protection Agency (EPA), 
the U.S. Coast Guard, Louisiana Governor's Office of Homeland 
Security, and the Louisiana Department of Environmental 
Quality, and FEMA. Every agency but FEMA was interested in 
discussing and agreeing to procedures to address questions 
related to the oil spill. FEMA's response was that they were 
coming up with their own rules. There was no need for 
discussion. To date, I have not received any guidance or 
procedures from FEMA pertaining to the storm response and the 
handling of the debris in light of possible oil spill 
contamination as a result of this hurricane season.
    To me, and I am sorry, Mr. Fugate, he stated that--and I 
have great respect for him, I will tell you that, and I think 
he is trying, but I want him to know today that just yesterday, 
I met with all of our agencies in St. Tammany Parish about the 
CDL loans, and I have to tell you, it is not happening on the 
ground, Mr. Fugate. They have told us directly in meetings, you 
have 5 days to sign this paperwork. You will sign it, and these 
are the numbers. We have had very little dialogue in reference 
to the capital expenditures, our budgets, our operating 
revenues, and the like. So I would request that you would work 
with us closely in reference to the CDL loans, and I want to 
thank you for the opportunity.
    Senator Landrieu. Thank you very much. Sheriff Hingle.

    TESTIMONY OF JIFF HINGLE,\1\ SHERIFF, PLAQUEMINES PARISH

    Sheriff Hingle. Thank you, Madam Chairman and Members of 
the Subcommittee. Hurricane Katrina completely destroyed the 
Plaquemines Parish Sheriff's Office (PPSO) Detention Center 
located in Pointe a la Hache. On first availability, the 
Sheriff's Office and FEMA met to discuss assistance in 
rebuilding the detention facility. From the beginning, the 
talks agreed that a temporary detention facility was necessary 
due to the duration of time needed to build a permanent one and 
the fact that the Sheriff's Office had no place to hold their 
prisoners. The following is a summary of events that have 
unfolded from that time.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hingle appears in the appendix on 
page 131.
---------------------------------------------------------------------------
    August 2006, the LeBlanc Group was contacted to assist in 
the bid package for the demolition of the existing detention 
center that had been destroyed. The LeBlanc Group was the 
architect and engineer (A&E) of the damaged facility and had 
the expertise and information necessary to safely move the 
demolition forward. The damaged detention facility was 
successfully removed by February 2007.
    In March 2007, we advertised for an architect-engineering 
service for a temporary facility. The LeBlanc Group was awarded 
the contract in May of that year and began work on the original 
temporary facility design. The original proposal was to build 
the temporary facility at grade level using modular units. 
During that period, the design of the temporary detention 
facility was halted due to advisory base flood elevation (ABFE) 
concerns raised by FEMA. Eventually, the LeBlanc Group decided 
they could no longer afford to wait on the constant delays 
created by FEMA regarding the base flood elevation and asked to 
be relieved of their contractual obligations.
    Madam Chairman, I have entered all this into the record. 
This is a very long and tedious presentation. I am not going to 
read it all. I would like to say that the base flood elevations 
were finally determined in July of this year. We are working 
with FEMA and have signed a Project worksheet (PW) that has 
been sent to Washington that hopefully will begin construction 
of the permanent facility. We have abandoned the idea of a 
temporary facility altogether.
    If we receive our PW as promised by the end of this year, 
advertise for bid, and by the spring go out for construction, 
with the construction time, you will be there with me for the 
cutting of the ribbon of that facility on the tenth anniversary 
of Hurricane Katrina.
    I want to thank the Senator and I want to thank Congressman 
Melancon for all of their assistance over these years in 
pushing FEMA forward on this. I also want to thank some sheriff 
friends of mine, former Sheriff Litchfield from Baton Rouge, 
former Sheriff Lee from Jefferson, Sheriff Norman of Jefferson, 
and Sheriff Marlon Gusman of New Orleans, who have held my 
prisoners all this time. Without their assistance, we would not 
have been able to run a successful Sheriff's operation in 
Plaquemines Parish.
    I have to say that during this time period, we finally saw 
some light a year ago and that light began when Tony Russell 
came to New Orleans. The roadblock that we had experienced for 
almost 4 years was finally opened within about a 90-day period 
with face-to-face conversations with Mr. Russell and I thank 
him for that. It has taken us a little while to finish this, 
but I do see progress now and light at the end of the tunnel. 
And I want to thank all of you for being here today and hearing 
this testimony and working with us, not only in the past, but I 
know working with us in the future. Thank you.
    Senator Landrieu. Thank you, Sheriff.
    I am going to begin with just the first few minutes of 
questions and then move down the panel.
    I would like, just for the record, to establish the 
question I am going to ask on the Community Development Loans 
for Mr. Mayor, for you to just say into the record what the 
total budget of Orleans Parish is, roughly, your budget, the 
city. You might want to throw in what, if you do know, what the 
school board is, because I guess those combined would be the 
two largest. What is your general----
    Mr. Landrieu. I don't have the school board number. The 
city's number is $451 million on city general fund dollars. 
And, of course, when the Federal dollars are laid on top of 
that, it is approximately a billion dollars. We don't operate 
the school system, so I don't have those numbers available.
    Senator Landrieu. But that is very, very good for this 
question. Kevin, what is your total budget?
    Mr. Davis. 101 million.
    Senator Landrieu. A hundred-and-one million. And Jiff, what 
is your budget?
    Sheriff Hingle. Twenty million.
    Senator Landrieu. OK. The question--I am glad to have that 
on the record, because I want to say that at the time of 
Hurricane Katrina--Mr. Fugate, this--that the Federal 
Government allowed these officials to borrow a total amount of 
money of $5 million. That was the cap in the Federal law. So I 
want to ask you, what would $5 million do for them, and could 
you comment on this whole loan situation that has been a 
nightmare for us and how we are going to find justice on this 
issue.
    Mr. Fugate. Madam Chairman, I think, first of all, I have 
actually had this conversation with the Emergency Manager 
Commissioner for the City of New York, and $5 million wouldn't 
even be, I think, a half-day of their personnel budget.
    The Community Disaster Loan Program, as you point out, is 
something we are going to have to look at, expanding that, but 
I think there is a more fundamental question. In the gravity of 
the situation and erosion of the tax base and the likely costs 
that are going to occur, should we be looking at a loan or 
looking at a grant program?
    Historically, under the Stafford Act, operating costs were 
not generally considered eligible if there was a tax revenue 
stream that would be expected to pay for that. And so 
disruptions in tax base--we look at, in the Stafford Act, for 
those increased costs, the extraordinary costs, the overtime. 
But it doesn't really address the underlying issue of, one, 
what is going to happen with reimbursement? So should we be 
looking at these differently?
    But on the current situation is--and again, I got this 
yesterday when we were talking about what is being considered 
as income to determine what is considered a surplus versus a 
deficit in the operating budget, and I was told they were 
looking at FEMA assistance and how that was being calculated. 
And so Tony Russell and I immediately said, A, it didn't sound 
right, and B, we need to go back and go, what are we actually 
using for determining what is the revenue stream and level of 
income.
    Senator Landrieu. But I just want to be clear for this 
record on this question, because this is just critical to our 
success moving forward, that what you just testified to, what I 
heard was that in FEMA's mind, you are clear that these 
officials could borrow money from you for overtime, etc, etc. 
But I continue to remind you and other Federal officials that 
overtime is important, but in a catastrophe, regular time is 
very important because police officers have to be paid for 
regular time before they can actually be present to work 
overtime.
    So I keep pressing for an adequate response. Now, we know 
that you are leaning forward on this. I can hear it in your 
voice and I hear it in the testimony. But I want to be clear 
that we are going to leave here committed to figuring this out, 
because if my staff will give me the number, we have 
outstanding debt of, what is it, over a billion? It is over 
$800 million that the State of Louisiana, our elected officials 
collectively owe, and we have that in the record as to--and 
each one of them sort of have a--well, you have a very good 
idea of how much it is, I am sure. But I will say it is between 
$800 million and $1 billion.
    Now, for communities that are struggling to build schools, 
fire stations, sidewalks, sewer systems, levees, 
transportation, support their neighborhood groups, finding this 
$800 million or $1 billion is going to be very difficult even 
for our wealthiest parishes. So we have to really figure this 
out, and that would basically be my question. Do you have any 
additional comment, and then I am going to pass it on to my 
colleagues.
    Mr. Fugate. Madam Chairman, I think you got it exactly 
right. I think the original intention prior to Hurricane 
Katrina was the Community Disaster Loan Program could provide a 
loan until the FEMA reimbursement process kicked in. It never 
addressed the underlying issue of what happens if you had the 
extraordinary cost plus a tax base which is devastated so your 
baseline costs aren't being covered, and that was something I 
don't think that was ever anticipated in the Community Disaster 
Loan Program, and as we did the Special Community Disaster Loan 
Program, we were trying to address.
    So I think this is something, again, to look at it, is when 
should we look at this as a grant that we don't really expect--
how do you make up this revenue stream as you are trying to 
rebuild a tax base and pay back a loan? I know that is the 
mechanism we use. So maybe the question is, the tool we use, we 
need to find a different tool. But we have to take the tool we 
have now and figure out what it is going to take to make sure 
we continue communities being able to continue their 
operations, that these loans--so we can deal with two issues, 
the forgiveness but also the loans themselves affecting bond 
rating as communities try to move forward.
    Senator Landrieu. Well, I would hope, and I would turn it 
over to the Congressman--I know the Mayor and others have 
suggestions--I would hope that you would take some time very 
soon to sit down face-to-face with these elected officials, 
because you won't find more experienced elected officials 
anywhere in the country except for the ones along the Gulf 
Coast that have taken out these loans, trying to figure out how 
to repay it, why it didn't work, maybe it should be grants, 
than these folks, and I hope that you will do that. Congressman 
Melancon.
    Mr. Melancon. Thank you, Senator Landrieu.
    Mr. Fugate, if you would, let me just follow up on that. 
One of the things that I have found and I think most of the 
officials found after Hurricane Katrina was that Stafford was 
totally inadequate for the catastrophic event we experienced. 
It is OK if you have levee breaks up north in Iowa and a 
regular hurricane, whatever that is these days. But if you 
could help us as members of Congress, you and Tony, because I 
know you have been through the experiences before, is I think 
we need assistance in trying to--and these gentlemen and their 
offices can help us, also--to look at a reauthorization or 
reforming so that there is a catastrophic event clause that 
triggers in and how we trigger it in, that the norm, the 
Stafford, doesn't become the norm for a major catastrophic 
event and would maybe give more leeway to the people that run 
the agency going into the future. Hopefully, you will never 
have to experience it, but we thank you for what you and Tony 
have done. It has been 100 percent better.
    Mr. Fugate. Well, sir, I think one of the things we would 
like to continue to pursue, and we are going to use the 
existing authorities we have and working with Mayor Landrieu, 
is we oftentimes would look at a project by project, building 
by building type approach instead of stepping back and saying, 
instead of doing a project as a fire station, let us look at 
fire service or, as the Mayor says, public safety as a project, 
and again, use some of the tools we used to recover the school 
district, and that, I think, is a more effective, faster way. 
When you have large system impacts, look at the system, not the 
individual buildings in trying to do the grant process.
    Senator Landrieu. Amen. Congressman Scalise.
    Mr. Scalise. Thank you, Senator. I have two questions, and 
I will ask the questions if that is OK, Senator, and then let 
the panel address it.
    First, on the Category 5 flood protection, General Van 
Antwerp, under one of the things that we have been trying to 
push as a delegation is to get a real commitment on Category 5 
flood protection, which is something we don't have right now. 
One of the things, and I wasn't here initially after Hurricane 
Katrina in the Congressional delegation, but language that was 
passed by our delegation back then seemed it was the intent of 
the delegation to get specific recommendations from the Corps 
on specific projects to bring us to, not, as Mayor Landrieu 
talked about, not hundred-year flood protection, but true 
Category 5 flood protection, which is a much stronger level 
that we all want to achieve. But the recommendations that came 
down for the Corps, it wasn't specific recommendations. It was 
more of a spreadsheet with options that were given to the State 
and then asking the State to come back and identify those.
    And so if you can address kind of that difference between 
what the Congressional intent seemed to be that the 
Congressional delegation wanted to have the Corps give specific 
recommendations, as has always been done in the past and is 
typically the process we need to go and then seek the 
authorization and funding versus what was sent down.
    And then if I can ask Parish President Davis to touch again 
on the CDL issue, because I know you have come down more than 
one time, come to Washington, working with me and others to try 
to get clear definitions, and as the definitions did come out 
and the rules on the CDL process, and recently the unfortunate 
rejection, not only in your parish but in other parishes, the 
rejection of forgiveness of those loans where in some places 
you had forgiveness and some you didn't get forgiveness, how we 
can get some better dialogue with the FEMA Administrator Fugate 
to get, as you mentioned, in that second round, if there 
hopefully will be a second round of rules to try to get over 
that hump for those communities that are experiencing problems 
today, but just because of the guidelines that seem to be in 
place, it didn't necessarily take into account the issues that 
they had, so they didn't get the same forgiveness as somebody 
else did even though they both were in that line of fire. So if 
I could----
    Senator Landrieu. Excellent question. If you all would, 
limit your response to 2 minutes each so we can get Congressman 
Cao in.
    General Van Antwerp. Your question is a great one. When we 
did the LACPR report, what we essentially were looking at in 
the different planning units what are the alternatives. That is 
what we did first. And then which ones were, in our opinion, 
the best alternatives, but there are tradeoffs. For instance, 
in St. Bernard Parish where we built the T-walls, if you would 
build a conventional levee there, the base would have been 900 
feet and you would have needed more property. It would have 
impacted wetlands. So there are different effects of each of 
these.
    The standard in the United States right now is the 100-year 
level. We have looked at the system in the Netherlands and 
there are alternatives similar to that system, but they can be 
very, very expensive and they can impact the environment. So 
that is where there are tradeoffs. We are meeting with the 
State right now to try and pick the best alternatives in each 
of those planning units, in each of the regions, if you will.
    We kind of mix Category 5 and the 100-year, because 
Category 5 isn't necessarily a 500-year event. Hurricane 
Katrina, for instance, had a very large surge which was much 
greater than its category. We can give more information on what 
we hope to get out of the long-range plan, but it is going to 
take working with the State to do that and to determine what 
alternatives that the people want and the subsequent tradeoffs.
    Senator Landrieu. Thank you. President Davis.
    Mr. Davis. Yes. I think, to answer the Congressman 
directly, yesterday, we had a meeting with all of our agencies, 
be it fire, municipalities, hospitals. I think the problem is 
how they determined the surplus or the income of a local 
government authority. Like, we have a 2-cent sales tax, and in 
that discussion, it is highly dedicated. It can't be used for 
other expenditures. It can't be used for personnel. But they 
are using some of those dollars in the overall picture, which 
then they came back to us and said we had a surplus of $125 
million. But that is not correct. It is not the accounting 
process that we use.
    And again, I am--it is great that I have this opportunity 
while he is here, because I have to tell you, the people on the 
ground have been very forceful and have--I had one mayor just 
sign off the other day. She just gave up and signed the thing. 
She says, ``I am not worried about it because when the first 
payment comes due, I am going to have a deficit so I can't pay 
it.'' I said, ``But Mayor, I don't think you understand. They 
can take other assets,'' and I have seen them do that. We had 
them do that with the Natural Resources Conservation Service 
(NRCS) on us because of the 20 percent match. When we didn't 
make the payment, they took other Federal funds from other 
agencies and took our money. So this is a serious issue and I 
would look forward to meeting with them in reference to how the 
surpluses or how the accounting is done.
    Senator Landrieu. OK. Thank you.
    Mr. Scalise. And if Administrator Fugate can help us with 
that, to get that, hopefully the differences in accounting 
practices between what the parishes actually experience versus 
what the FEMA folks on the ground looked at.
    Mr. Fugate. And I am very familiar, having come from local 
government, where you have a taxing authority that is currently 
going to a certain bond or a certain activity and part of that 
enabling legislation is it can't be used other places. So 
again, that is one. Yesterday, we were hearing what was being 
counted, and we want to go back and make sure that we are 
looking at what the actual revenue that should be going against 
a loan and not looking at other types of revenue that would not 
necessarily be supporting that repayment.
    Senator Landrieu. That is an excellent--we will take that 
testimony and we will take that as a yes, we will work on it. 
Thank you. Congressman Cao.
    Mr. Cao. Thank you, Senator, and my two questions will be 
to General Van Antwerp.
    One, based on my observation of the BP oil spill, it seems 
to me that the Army Corps still has this level of bureaucracy 
that prevents the Army Corps to make very quick decisions, 
which is something that we needed in the situation of the oil 
spill. My question to you, the first question is, have you 
looked at that problem and what are the future steps that you 
will take to reduce this bureaucracy and to enable the Army 
Corps to make quicker decisions?
    My second question is, how are you working with Secretary 
Mavis to look at the issue of a long-term environmental 
redevelopment?
    Senator Landrieu. And General, if you will take 2 minutes 
to answer that, and then I am going to have the Mayor give 
closing remarks and we are going to end this panel.
    General Van Antwerp. Regarding the oil spill, our primary 
mission was the evaluation of emergency permits under our 
regulatory authority. We received 57 permits, and we can tell 
you exactly when we received them and how it took to reach 
decisions. We used emergency procedures. Many of the permit 
requests had no science or engineering behind them, so we had 
to model them to determine effects. As it turned out, a lot of 
them would have done more damage had we permitted what was 
requested. So we have to get that part right.
    We had a strong urge, to let us do something and do it now. 
But you have to also do the right thing. We will continue to 
look at our emergency procedures. A lot of those 57 permits 
that were requested were given on the same day that they were 
requested. It is something we do need to work more on, but we 
also want to get the science and engineering right.
    On the other part, we are definitely working with Secretary 
Mavis on the long-term environmental impacts, the marshlands, 
the wetlands, and what could be done. We are also looking at 
that as part of the long-range master plan for this area and 
what is the mitigation and how do we make sure that we are 
building better and building better environmentally in this 
wonderful ecosystem.
    Senator Landrieu. Thank you.
    Mr. Mayor, any closing remarks?
    Mr. Landrieu. Thank you so much, Madam Chairman and Members 
of the Subcommittee, and, of course, my fellow panel members. I 
would just say this. We obviously have made great progress, but 
we have a very, very long way to go and we have some 
challenges, and the broadest challenge in my opinion is that 
the U.S. Government is not adequately prepared structurally to 
respond to a catastrophic event. That is the big message. I 
think everybody here is working as hard as they can within the 
guidelines that exist. Obviously, being more responsive, being 
available, giving quick answers is critically important. Trying 
to lean towards yes is critically important, and Tony and those 
guys have done a great job.
    But my general observation in the policy discussion that 
you have, should Stafford be amended, should it not be, I don't 
know the answer to that question. I can say this to you, 
though, that this country right now organizationally is not set 
up to recover from a catastrophic event. FEMA is not a recovery 
organization. They are not a rebuilding organization. They were 
designed to get there quick and to respond.
    But as you can see from catastrophic events that we have 
had, we need something bigger and more robust, something more 
flexible, something that takes into consideration all of the 
different permutations that we have learned through the agony 
that we have all been through, and that is the big take-away 
lesson for us.
    Finally, I would say this. We continue to want to work 
very, very closely. There is a disconnect sometimes between now 
the efficacy with which the folks in Washington are working and 
what we are hearing on the ground from the folks. We saw that 
during the BP oil spill. We saw it with the Coast Guard. We see 
it all the time, and we have to tighten that up a little bit. I 
feel very comfortable that we have a lot of really great hands 
on deck. We have a lot of passion. We are now once again the 
eye of the Nation and we should take this opportunity to help 
learn from them and also be able to ask the Nation to learn 
from the travails that we have gone through.
    But thank you so much for your attention and thank you all 
for your advocacy on behalf of the city and the State of 
Louisiana.
    Senator Landrieu. Thank you all very much, and the meeting 
is going to be adjourned. There will be a press availability in 
front of the school, downstairs, in 5 minutes. It will last 
only 10 minutes. There will be questions only from the press, 
no statements, and anyone is invited to participate.
    Thank you all very much. Hearing adjourned.
    [Whereupon, at 12:30 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T3829.001

[GRAPHIC] [TIFF OMITTED] T3829.002

[GRAPHIC] [TIFF OMITTED] T3829.003

[GRAPHIC] [TIFF OMITTED] T3829.004

[GRAPHIC] [TIFF OMITTED] T3829.005

[GRAPHIC] [TIFF OMITTED] T3829.006

[GRAPHIC] [TIFF OMITTED] T3829.007

[GRAPHIC] [TIFF OMITTED] T3829.008

[GRAPHIC] [TIFF OMITTED] T3829.009

[GRAPHIC] [TIFF OMITTED] T3829.010

[GRAPHIC] [TIFF OMITTED] T3829.011

[GRAPHIC] [TIFF OMITTED] T3829.012

[GRAPHIC] [TIFF OMITTED] T3829.013

[GRAPHIC] [TIFF OMITTED] T3829.014

[GRAPHIC] [TIFF OMITTED] T3829.015

[GRAPHIC] [TIFF OMITTED] T3829.016

[GRAPHIC] [TIFF OMITTED] T3829.017

[GRAPHIC] [TIFF OMITTED] T3829.018

[GRAPHIC] [TIFF OMITTED] T3829.019

[GRAPHIC] [TIFF OMITTED] T3829.020

[GRAPHIC] [TIFF OMITTED] T3829.021

[GRAPHIC] [TIFF OMITTED] T3829.022

[GRAPHIC] [TIFF OMITTED] T3829.023

[GRAPHIC] [TIFF OMITTED] T3829.024

[GRAPHIC] [TIFF OMITTED] T3829.025

[GRAPHIC] [TIFF OMITTED] T3829.026

[GRAPHIC] [TIFF OMITTED] T3829.027

[GRAPHIC] [TIFF OMITTED] T3829.028

[GRAPHIC] [TIFF OMITTED] T3829.029

[GRAPHIC] [TIFF OMITTED] T3829.030

[GRAPHIC] [TIFF OMITTED] T3829.031

[GRAPHIC] [TIFF OMITTED] T3829.032

[GRAPHIC] [TIFF OMITTED] T3829.033

[GRAPHIC] [TIFF OMITTED] T3829.034

[GRAPHIC] [TIFF OMITTED] T3829.035

[GRAPHIC] [TIFF OMITTED] T3829.036

[GRAPHIC] [TIFF OMITTED] T3829.037

[GRAPHIC] [TIFF OMITTED] T3829.038

[GRAPHIC] [TIFF OMITTED] T3829.039

[GRAPHIC] [TIFF OMITTED] T3829.040

[GRAPHIC] [TIFF OMITTED] T3829.041

[GRAPHIC] [TIFF OMITTED] T3829.042

[GRAPHIC] [TIFF OMITTED] T3829.043

[GRAPHIC] [TIFF OMITTED] T3829.044

[GRAPHIC] [TIFF OMITTED] T3829.045

[GRAPHIC] [TIFF OMITTED] T3829.046

[GRAPHIC] [TIFF OMITTED] T3829.047

[GRAPHIC] [TIFF OMITTED] T3829.048

[GRAPHIC] [TIFF OMITTED] T3829.049

[GRAPHIC] [TIFF OMITTED] T3829.050

[GRAPHIC] [TIFF OMITTED] T3829.051

[GRAPHIC] [TIFF OMITTED] T3829.052

[GRAPHIC] [TIFF OMITTED] T3829.053

[GRAPHIC] [TIFF OMITTED] T3829.054

[GRAPHIC] [TIFF OMITTED] T3829.055

[GRAPHIC] [TIFF OMITTED] T3829.056

[GRAPHIC] [TIFF OMITTED] T3829.057

[GRAPHIC] [TIFF OMITTED] T3829.058

[GRAPHIC] [TIFF OMITTED] T3829.059

[GRAPHIC] [TIFF OMITTED] T3829.060

[GRAPHIC] [TIFF OMITTED] T3829.061

[GRAPHIC] [TIFF OMITTED] T3829.062

[GRAPHIC] [TIFF OMITTED] T3829.063

[GRAPHIC] [TIFF OMITTED] T3829.064

[GRAPHIC] [TIFF OMITTED] T3829.065

[GRAPHIC] [TIFF OMITTED] T3829.066

[GRAPHIC] [TIFF OMITTED] T3829.067

[GRAPHIC] [TIFF OMITTED] T3829.068

[GRAPHIC] [TIFF OMITTED] T3829.069

[GRAPHIC] [TIFF OMITTED] T3829.070

[GRAPHIC] [TIFF OMITTED] T3829.071

[GRAPHIC] [TIFF OMITTED] T3829.072

[GRAPHIC] [TIFF OMITTED] T3829.073

[GRAPHIC] [TIFF OMITTED] T3829.074

[GRAPHIC] [TIFF OMITTED] T3829.075

[GRAPHIC] [TIFF OMITTED] T3829.076

[GRAPHIC] [TIFF OMITTED] T3829.077

[GRAPHIC] [TIFF OMITTED] T3829.078

[GRAPHIC] [TIFF OMITTED] T3829.079

[GRAPHIC] [TIFF OMITTED] T3829.080

[GRAPHIC] [TIFF OMITTED] T3829.081

[GRAPHIC] [TIFF OMITTED] T3829.082

[GRAPHIC] [TIFF OMITTED] T3829.083

[GRAPHIC] [TIFF OMITTED] T3829.084

[GRAPHIC] [TIFF OMITTED] T3829.085

[GRAPHIC] [TIFF OMITTED] T3829.086

[GRAPHIC] [TIFF OMITTED] T3829.087

[GRAPHIC] [TIFF OMITTED] T3829.088

[GRAPHIC] [TIFF OMITTED] T3829.089

[GRAPHIC] [TIFF OMITTED] T3829.090

[GRAPHIC] [TIFF OMITTED] T3829.091

[GRAPHIC] [TIFF OMITTED] T3829.092

[GRAPHIC] [TIFF OMITTED] T3829.093

[GRAPHIC] [TIFF OMITTED] T3829.094

[GRAPHIC] [TIFF OMITTED] T3829.095

[GRAPHIC] [TIFF OMITTED] T3829.096

[GRAPHIC] [TIFF OMITTED] T3829.097

[GRAPHIC] [TIFF OMITTED] T3829.098

[GRAPHIC] [TIFF OMITTED] T3829.099

[GRAPHIC] [TIFF OMITTED] T3829.100

[GRAPHIC] [TIFF OMITTED] T3829.101

[GRAPHIC] [TIFF OMITTED] T3829.102

[GRAPHIC] [TIFF OMITTED] T3829.103

[GRAPHIC] [TIFF OMITTED] T3829.104

[GRAPHIC] [TIFF OMITTED] T3829.105

[GRAPHIC] [TIFF OMITTED] T3829.106

[GRAPHIC] [TIFF OMITTED] T3829.107

[GRAPHIC] [TIFF OMITTED] T3829.108

[GRAPHIC] [TIFF OMITTED] T3829.109

[GRAPHIC] [TIFF OMITTED] T3829.110

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
